<html>
<title> - [H.A.S.C. No. 114-120] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-120]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                     THE MISSILE DEFEAT POSTURE AND

                    STRATEGY OF THE UNITED STATES--

            THE FISCAL YEAR 2017 PRESIDENT'S BUDGET REQUEST

                               __________

                              HEARING HELD
                             APRIL 14, 2016



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-080                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
  
  
  
  
  
  
  
  
  
  
  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

          <greek-l>STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     0
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................1 deg.

                               WITNESSES

Cashman, RDML Edward, USN, Director, Joint Integrated Air and 
  Missile Defense Organization
Gortney, ADM William E., USN, Commander, North American Aerospace 
  Defense Command, U.S. Northern Command
McKeon, Hon. Brian P., Principal Deputy Under Secretary of 
  Defense for Policy, Department of Defense
Pike, Barry J., Program Executive Officer, Missiles and Space, 
  U.S. Army
Syring, VADM James D., USN, Director, Missile Defense Agency

                                APPENDIX

Prepared Statements:

    Cashman, RDML Edward.........................................    98
    Gortney, ADM William E.......................................    39
    McKeon, Hon. Brian P.........................................    29
    Pike, Barry J................................................    89
    Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
      Subcommittee on Strategic Forces...........................    27
    Syring, VADM James D.........................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Garamendi................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   129
    Mr. Cooper...................................................   128
    Mr. Forbes...................................................   129
    Mr. Rogers...................................................   113
    
    
    
    
    
    
    
    
    
    
    
    
   THE MISSILE DEFEAT POSTURE AND STRATEGY OF THE UNITED STATES--THE 
              FISCAL YEAR 2017 PRESIDENT'S BUDGET REQUEST

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, April 14, 2016.
    The committee met, pursuant to call, at 2:00 p.m., in room 
2118, Rayburn House Office Building, Hon. Mike Rogers (chairman 
of the subcommittee) presiding.
    Mr. Rogers. I call this hearing of the House Armed Services 
Subcommittee on Strategic Forces to order. Welcome everybody 
here today. Today we are holding an oversight hearing on the 
missile defeat posture strategy of the United States, the 
fiscal year 2017 President's budget request.
    And, unfortunately, votes are going to be called on the 
House floor between 3:00 and 3:30. So in order to make sure we 
can get to the meat of the hearing, which is the Q and A 
period, the ranking member and I have agreed that we are going 
to dispense with our opening statements and the witnesses' 
opening statements, so they will be submitted for the record in 
their entirety, and we will go straight to questions.
    [The prepared statements can be found in the Appendix 
beginning on page 27.]
    Mr. Rogers. We are very fortunate today to have a very 
distinguished panel. The witnesses we have are the Honorable 
Brian McKeon, Principal Deputy Under Secretary for Defense 
Policy, Department of Defense; Admiral Bill Gortney, Commander, 
North American Aerospace Defense Command, U.S. Northern 
Command; Vice Admiral James Syring, Director, Missile Defense 
Agency; Mr. Barry Pike, Principal Executive Officer, Missiles 
and Space, U.S. Army; and Rear Admiral Edward Cashman, 
Director, Joint Integrated Air and Missile Defense 
Organization.
    And Lieutenant General Mann is here somewhere. Or maybe 
not. I think--well, that is for the closed session. That is 
right. We will have Lieutenant General Mann here for the closed 
session.
    All right. And with that, like I said, we will dispense 
with the opening statements and I will go directly to 
recognizing myself for the first series of questions.
    This will be for Admiral Syring and Admiral Gortney. Is the 
Iran ballistic missile threat to the region, including Israel 
or the United States, slowing in any respect since last year? 
Admiral Gortney, would you like to go first?
    Admiral Gortney. Sir, we have seen, as a result of JCPOA 
[Joint Comprehensive Plan of Action], the nuclear issue 
temporarily, potentially permanently, taken off the table, but 
we see them to continue to develop the propellent, the rocket 
motor, and we assume they are continuing to develop a reentry 
vehicle. So we see, of the three pieces that they need, a 
nuclear weapon miniaturized to put on it, a delivery-capable 
booster, and a reentry vehicle. We don't see the latter two 
being slowed.
    Mr. Rogers. Admiral Syring, did you want to offer anything 
in addition to that?
    Admiral Syring. I agree. I do not see it slowing in any 
way.
    Mr. Rogers. Great. Admiral Syring, we often talk about the 
combatant commanders and military services for the unfunded 
requirements list. Do you have an unfunded requirements list?
    Admiral Syring. So there are gaps in the BMDS [Ballistic 
Missile Defense System], but our----
    Mr. Rogers. Please pull the microphone closer.
    Admiral Syring. Sure. There are gaps in the BMDS currently 
that are not funded, and they include advanced technology, a 
space layer, and additional sensor capability as well.
    Mr. Rogers. What funding do you require to meet the 
combatant command requirement for THAAD [Terminal High Altitude 
Area Defense] and SM-3s [Standard Missile 3]?
    Admiral Syring. I am building seven THAAD batteries. The 
stated requirement from the Army is nine. So I have a two-
battery gap today to the stated requirement. I am building at a 
rate to fill out the seven batteries by the end of the FYDP 
[Future Years Defense Plan].
    Mr. Rogers. What about the Aegis system?
    Admiral Syring. The Aegis system, 33 BMD [ballistic missile 
defense] ships today, going to over 40 by the end of 2020, 
2021; SM-3s, IAs and IBs, about 170 on path to 415 through the 
FYDP. I do not have an end inventory objective yet for Aegis.
    Mr. Rogers. Great. Are you funded to develop and deploy 
defense against boost-glide missiles like those being developed 
by Russia and China? How much would such development cost?
    Admiral Syring. I am not funded.
    Mr. Rogers. How much would it cost to do that?
    Admiral Syring. I have asked for $23 million to begin a 
low-power laser demonstrator this year to demonstrate the 
feasibility by 2021.
    Mr. Rogers. And let's see. Mr. Pike, I would like to call 
your attention to the screens. You will see red, yellow, and 
green highlighted areas which represent different decades of 
key systems to the current Patriot radar employed by the U.S. 
forces. I note these are the systems employed by the U.S. and 
not our partner nations in the Patriot program.
    [The graphics referred to are retained in the subcommittee 
files and can be viewed upon request.]
    Mr. Rogers. If the green represents the radar hardware that 
is with 1990s vintage, which are expected to be obsolete in 
2010, and it is now 2016, of course, would I be correct to say 
that even under your radar digital processor programs, some of 
the newest equipment in the radar, in this radar, the green 
shaded area, will be older than any air defender who uses it?
    Mr. Pike. Sir, I haven't done the math on that, but it is 
aging technology, sir.
    Mr. Rogers. So if I am correct, and we are to assume that 
2028 initial funding of a new Patriot radar will occur, we will 
have a radar system with components, in some cases, that are 58 
years old?
    Mr. Pike. Sir, we are continuing to modify and request 
funds to modify the existing Patriot radar until we are able to 
field the lower tier air missile defense sensor. The schedule 
is not really established yet. It is 2028. The Army is meeting 
this afternoon as a part of the Army Requirements Oversight 
Council to establish the actual operational requirement. And 
once that operational requirement is established, we will be 
able to assess the maturity of the technology against the 
requirement. And so that schedule that you have seen is not set 
in stone.
    Mr. Rogers. But you see what I have described. It is 
completely unacceptable. Aren't there systems that we have 
available that have been developed already that could meet the 
needs that this system should be meeting that are available for 
us to access from the private marketplace?
    Mr. Pike. Sir, the Army conducted an analysis of 
alternatives. It was a very broad analysis across all the 
department, assessed all the available radars within the 
Department of Defense, modifications to those existing radars 
and the new radars all together. That analysis of alternatives 
is complete through the Army. However, it is within OSD [Office 
of the Secretary of Defense] for a sufficiency evaluation. And, 
again, once that analysis of alternatives is complete and 
delivered to the Congress as a part of the law, then we will be 
able to go forward with an acquisition strategy, and a formal 
schedule, and a materiel solution, none of which we have 
currently today.
    Mr. Rogers. I just want to be clear. Speaking only for 
myself, I am not turning loose of this one. It is going to have 
to be remedied.
    Admiral Syring, if MDA [Missile Defense Agency] was 
developing and procuring these radars with the missile--with 
the acquisitions authorities you have, how much time would it 
take for you to take care--or take care of this problem?
    Admiral Syring. Mr. Chairman, I haven't----
    Mr. Rogers. Please pull the mike.
    Admiral Syring. I haven't looked at their specific 
technology, their specific schedule, but I can talk to what we 
did with LRDR [Long Range Discrimination Radar], which is the 
current radar that is under contract today, where we had a very 
defined requirement from the Joint Staff and had that under our 
umbrella, had the technology proven actually through the Navy's 
AMDR [Air and Missile Defense Radar] competition. So we didn't 
have to go through any of the Milestone A to B activity. It is 
going to take us 6\1/2\ years from start to finish.
    Mr. Rogers. Okay. With that, I yield to the ranking member 
for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    Admiral Syring, the level of funding for MDA is lower than 
in previous years. Can you explain this reduction for fiscal 
year 2017?
    Admiral Syring. Sir, it is lower and it is part of the 
overall DOD [Department of Defense] top line reduction as well. 
My share of that has lowered, you know, not an equal 
percentage, but a similar percentage.
    Mr. Cooper. Admiral, do you support successfully flight 
testing the redesigned kill vehicle before making a final 
production decision?
    Admiral Syring. Completely.
    Mr. Cooper. Again, Admiral Syring, is the schedule-driven 
requirement of deploying 44 ground-based interceptors driving 
undue risk in concurrency for acquiring and upgrading the 
interceptors?
    Admiral Syring. No, sir. We will flight test the last 
configuration that will complete the 44 by 2017 in a very 
complex ICBM [intercontinental ballistic missile] intercept 
test later this year.
    Mr. Cooper. Admiral Gortney, do you remain confident in the 
national missile defense system's capability? The Government 
Accountability Office stated in its February 2016 report that, 
quote, ``several key aspects of missile defense have not been 
demonstrated through flight testing,'' end of quote. Do you 
agree?
    Admiral Gortney. Sir, I am confident of the systems that I 
am responsible for, the ballistic missile defense for the 
homeland, and that----
    Mr. Cooper. Is your mike on?
    Admiral Gortney [continuing]. And that--the ballistic 
missile defense for the homeland that I work with MDA, and also 
the National Capital Region-Integrated Air and Missile Defense 
System, high confidence in its ability to engage the threats 
that it is designed to go against.
    Mr. Cooper. Admiral Gortney and Admiral Syring, how many 
successful flight intercept tests are needed to demonstrate 
that interceptors work as intended and are reliable?
    Admiral Syring. Sir, going forward, we have scheduled and 
it is funded in the program to test before we field. For 
example, the version that will go in next year will be flight 
tested later this year. For the redesigned kill vehicle, we 
have a nonintercept flight test and then an intercept flight 
test followed by a second intercept flight test in 2020 before 
that configuration will be fielded.
    Mr. Cooper. So two successful flight tests make it 
reliable?
    Admiral Syring. It will be one nonintercept test, which we 
will learn a lot, and then two intercept tests. And based on 
the engineering that we get from the flight tests, along with 
the ground testing that we will do, it will be a complete body 
of evidence that will give us confidence in a decision to go to 
full production.
    Mr. Cooper. Admiral Syring, what is the appropriate level 
of investment for boost phase missile defense?
    Admiral Syring. I don't know, is the answer, sir. And I 
don't know because I need to get to a technology feasibility 
demonstration with some confidence in the next 4 to 5 years to 
go prove that it is, one, technically feasible and, two, the 
cost estimates that I am getting from industry for a long-term 
program are affordable.
    Mr. Cooper. Mr. Pike, it is kind of shocking that the plan 
for Patriot modernization is expected to take 12 years, and 
that is assuming, I guess, you get approval this afternoon from 
your committee. I join in the chairman's assessment we need to 
do what we can to make that much faster.
    All witnesses, should we start building an east coast 
missile defense site?
    Mr. McKeon. Mr. Cooper, we are aware of the requirement in 
the NDAA [National Defense Authorization Act] to look at this 
and have something for a radar by 2020, and we have done the 
work on environmental impact statement [EIS] for a possible 
east coast site pursuant to a prior NDAA. It is not where we 
would spend our next dollar in this budget, but it is something 
we will be postured to do after the EIS, if a decision is made 
to do that.
    Mr. Cooper. Any other opinions?
    Admiral Syring. I will speak before the commander.
    Not at this time. Not this year, is the way I would 
respond.
    Mr. Cooper. Admiral Syring, a final question. Would 
upgrading the Hawaii-based Aegis Ashore testing facility to a 
fully operational site improve U.S. missile defense in the 
region?
    Admiral Syring. Yes, sir, potentially. Any sensor 
improvement for Hawaii and, frankly, in the kill chain for the 
BMDS, you know, east and west will improve our sensor and 
discrimination capability.
    Mr. Cooper. But you are talking sensors, not missiles?
    Admiral Syring. Sensors first, sir, yes.
    Mr. Cooper. Okay. Thank you, Mr. Chairman.
    Mr. Lamborn [presiding]. Representative Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank all of 
you. Thank you those that are wearing uniform for your 
commitment to protecting America and human freedom. I never 
want to miss that moment to tell you how much we appreciate 
you.
    Admiral Syring, I for one am very grateful that a man of 
your acumen is in the position that he is in. In 2011, the 
Institute for Defense Analyses conducted a study, and in it, it 
concluded a space-based interceptor layer would help defend 
against the more challenging missile threats, including direct 
ascent antisatellite missiles and antiship missiles. Now, I 
know that it is imperative that at the right times we time the 
development of these things. It is always good to be looking at 
them and being potentially aware of the challenges that we may 
face. But can you explain to this committee why this capability 
might someday be important and it might be helpful to defend 
not only our satellites, but potentially against antiship 
missiles?
    Admiral Syring. Mr. Franks, we have not in the recent years 
studied that in great detail. We have done some costing 
analysis of what a program may take and have some idea of the 
technical challenges to the said interceptor layer. Obviously, 
fielded interceptors in space worldwide from 20, 30 years ago, 
work had been done to show that that could help, but, sir, we 
haven't looked at it in the Department other than costing it 
against the range of alternatives. And, frankly, the cost has 
been overwhelming on what it would take and the technical 
challenges.
    Mr. Franks. Yeah. Well, I guess that might be part of why 
some of us would kind of like to begin to reorient at least our 
awareness in that direction.
    As detailed in a 2014 ``Defense One'' article, in both 2007 
and 2014, China, as I know you well know, tested rockets to 
launch kinetic kill vehicles against satellites in low and high 
orbits respectively. And both of these tests appear to indicate 
that they have the capability to attack our space assets. And 
in defending U.S. space assets against those direct ascent 
antisatellite weapons, is that something that defending these 
assets is ultimately included in the MDA mission?
    Admiral Syring. Sir, if we can defer the answer to 
classified session, I think we would----
    Mr. Franks. All right.
    Admiral Syring [continuing]. Have a very constructive 
discussion on that point.
    Mr. Franks. Okay. Would it be appropriate to ask if any 
other agency has any concurrent mission in research and 
development against to--the means to defend against these types 
of weapons?
    Admiral Syring. Sir, if I can defer that to a classified 
session as well.
    Mr. Franks. Okay. So let me rephrase this here a little, 
because I think you are absolutely right. But it is appropriate 
in this setting to suggest that a ballistic missile defense 
layer in space would provide not just the U.S. the ultimate 
high ground, it could provide a means to defending our space 
systems from these ballistic ASATs [antisatellite weapons]. Is 
that correct?
    Admiral Syring. Sir, if it could--if it was technologically 
feasible and affordable, which I think both, in my mind----
    Mr. Franks. Important question.
    Admiral Syring [continuing]. At this point are no; the 
answer would be yes to your question. I have serious concerns 
about the technical feasibility of interceptors in space, and I 
have serious concerns about the long-term affordability of a 
program like that.
    Admiral Gortney. But, sir, that does not mean that the 
Department is not looking at another alternative to go after 
that problem set. There may be another mechanism, another way 
to do that, and I know the Department is working on that.
    Mr. Franks. Would you suggest that there is some efficacy 
in maintaining an eye on that possibility?
    Admiral Gortney. It is a little bit out of my lane here, 
but, of course. We are going to look at what is the requirement 
and then what is the way, the mechanism that gives us the best 
value that is the most effective in order to solve that 
particular problem set. And sometimes one overarching system 
may be technically very hard and very expensive. But we can 
talk to the other mechanisms we are using when we go 
classified, sir.
    Mr. Franks. Okay. And at this time--well, yeah. Perhaps I 
would be running into the same challenge.
    So, Mr. Chairman, I am going to yield back here. And thank 
you all.
    Mr. Lamborn. Okay. Representative Garamendi.
    Mr. Garamendi. Thank you. And first, I apologize for not 
being here for the opening statements. So I may be covering 
some turf already handled.
    Missile defense can be done in a couple of different ways. 
The one I want to really focus on is directed energy. We have 
talked about that in both classified and in open hearing. In 
this open hearing, can you bring me up to date on where we are 
with the directed energy issue?
    Admiral Syring. Yes, sir. Working on two primary 
technologies within MDA, the DPALs [diode pumped alkali laser] 
technology that is being risk mitigated out at Livermore and 
fiber combined laser technology at MIT [Massachusetts Institute 
of Technology]. And, frankly, industry has been brought in over 
the last year to 18 months in a big way in terms of what they 
could potentially do with laser technology. We have asked this 
year for funding support for a low-power laser demonstrator to 
start this year to test in the 2020, 2021 timeframe to go prove 
directed energy in a boost phase mode.
    Mr. Garamendi. How much money have you asked for?
    Admiral Syring. $23 million in fiscal year 2017 budget.
    Mr. Garamendi. Did you miss some zeros?
    Admiral Syring. No, sir. The----
    Mr. Garamendi. And what will the $23 million do?
    Admiral Syring. The 5-year program is $278 million; $23 
million is the initial increment of funding required to get 
concepts and contractors awarded.
    Mr. Garamendi. And that is requested for this year's 
budget?
    Admiral Syring. That is correct, sir.
    Mr. Garamendi. I recall something--didn't we do that last 
year also?
    Admiral Syring. Last year as well, sir.
    Mr. Garamendi. Did you get it?
    Admiral Syring. No, sir.
    Mr. Garamendi. It was in----
    Admiral Syring. It was not appropriated. It was supported 
by this committee and the authorizers, both House and Senate, 
but was not appropriated.
    Mr. Garamendi. Did the House appropriate it?
    Admiral Syring. I will have to take that for the record in 
terms of what their mark was before conference, but in the end, 
it was----
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Garamendi. Well, I guess I am looking for names.
    Admiral Syring. Sir----
    Mr. Garamendi. Who killed it?
    Admiral Syring. So, sir, part of this is this is new, it 
was new last year, and I think there has been an education 
required on our part to go explain to people exactly what this 
demonstrator will do and that it is not a new airborne laser 
747 project, which actually had benefit. But this is a very 
much smaller scale demonstration to inform a future program, 
and that is all. There is nothing more, nothing less. And I 
believe industry is capable of competing and fielding a 
technology demonstrator.
    Mr. Garamendi. We have a classified session. I will wait 
till that point. Thank you.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Yeah. Thank you, Mr. Chairman.
    And, Admiral Syring, I would like to ask you about foreign 
military sales [FMS] of an advanced THAAD system to United Arab 
Emirates [UAE], and then get the Department's perspective on 
that afterwards. But is that something, if they are willing to 
front some of the cost of that, that we can afford? And are 
there people on record, and including yourself, perhaps, that 
would be in favor of this project?
    Admiral Syring. Sure. Right now in the budget, we are at 
the beginning concept feasibility level in terms of funding. I 
don't have a complete program even in my budget yet for THAAD-
ER [Terminal High Altitude Area Defense-Extended Range]. The--
or a follow-on THAAD. There is industry concepts on it and, 
frankly, some good thinking on that, and that, you know, there 
would be policy involvement with this question as well in terms 
of either a cooperative development on it or a full FMS case on 
a development program. But I don't have a stated requirement 
yet from the UAE for this capability. But certainly if we got 
it, we would consider that along with policy.
    Mr. Lamborn. Yeah, Mr. McKeon.
    Mr. McKeon. Mr. Lamborn, as a matter of general policy, our 
regional missile defense approach is to seek cooperative 
partners. So in theory, we certainly would want to encourage 
that kind of cooperation, and as Admiral Syring said, we don't 
have a program to go market with the Emirates, and nor have we 
gotten a request from them for this. So if we got to that 
stage, we would obviously need to look at some technology 
releasability issues and the funding issues on each side. But 
in theory, it is something we would certainly be open to.
    Mr. Lamborn. Okay. That is helpful. Thank you both for 
saying that.
    And, Admiral Syring, let me shift gears and ask about 
concurrency. Both the MDA and special forces have some unique 
capabilities in terms of rapid acquisition processes, and I 
believe concurrency is part of that. And can you talk about how 
that has been helpful to the MDA and what your perspective is?
    Admiral Syring. Sir, there has been some great examples 
recently that the agency has delivered in terms of meeting both 
policy and State Department requirements and combatant 
commander requirements. The example that comes to mind is 
Romania and how quickly we were able to design, build, produce, 
test, and field a system from an announcement that was back in 
2009. And to do that in a foreign country with the cooperation 
of the Romanian government, and all of the work that went in 
not just with MDA, but whole-of-department approach on this, 
including the Army Corps of Engineers, including many parts of 
OSD, OSD Policy, it was remarkable in terms of us being able to 
do that quickly with contracts--requirements, contracts, award, 
and production and fielding. And I believe our authorities 
enabled that.
    Mr. Lamborn. Well, I for one will go on record and say that 
I think this is something we need to examine to make broader 
than just MDA and special forces as we talk about acquisition 
reform, which the chairman of the full committee, to his 
credit, is very much wanting to push. So I think that this is 
something we need to look at and expand it within the 
Department of Defense.
    Admiral Syring. Sir, if I can just--you had also asked 
about concurrency. I think that is an important point. I think 
that is the risk of what I talked about, to make sure that we 
are managing concurrency as we go fast properly and not taking 
excessive risk with either technology or funding.
    Mr. Lamborn. All right. Very good.
    Does anyone else want to comment on that concept?
    Okay. Thank you very much, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair recognizes Mr. Larsen for 5 minutes.
    Mr. Larsen. Thank you. Admiral Syring, you are very popular 
this afternoon, but I will warn Secretary McKeon, I have a 
question for you, so----
    The first question, though, for admiral is back to Mr. 
Cooper's question on RKV [redesigned kill vehicle]. And I 
understand how you answered it, but I want you to take a little 
bit different approach on this and I want to ask you how are 
you reducing acquisition risk itself for the RKV?
    Admiral Syring. Yes, sir. Great question. The first--the 
first part of acquisition of risk starts with design and system 
engineering. And if we rush the cycle we are in now without 
proper maturity and without meeting the proper technology or 
design gates in terms of deliverables at certain points in the 
design, you will fail in the end.
    So this foundation that we are building with rigor and 
depth on the system engineering that are going into the design 
of the RKV is, in my view, the most important part. And what my 
direction has been to the team that is working this, which is a 
fantastic team, cross-industry team working this, is that we 
will not proceed past major design review points if the 
deliverables have not been met, and not been delivered, and do 
not meet our entrance and exit criterias. And, sir, I can get 
this to you. There is a very lengthy entrance and exit criteria 
list for all of our design reviews and all of the gates that 
this design has to pass through.
    And the design maturity in the end, sir, will drive when 
this thing is ready for test. I am planning for an end of 2018 
test, but if the design maturity is not such, I will not test 
in 2018. And to me, that is where we need to hold the line 
here, is early on. And rushing programs through the design 
phase, they are absolutely doomed to fail.
    Mr. Larsen. Also, we had a conversation earlier. And just 
help me understand this issue on THAAD and South Korea from a 
technical operational perspective.
    Admiral Syring. Yes, sir. I will leave the policy and the 
State Department discussion to the Secretary. I will speak to 
it from a materiel standpoint. There is no doubt that the 
system can provide fantastic coverage capability for not only 
our ally there, but our U.S. deployed forces. And I am 
confident in the design of that system and its intercept 
record. And if the decision were to be made, I stand by that it 
is the right materiel solution.
    Mr. Larsen. Yeah. Great. Well, then the follow-up is on the 
policy, especially now in light of the National Assembly 
election yesterday where the president's party lost the 
majority and what the implications are. And so where are we 
from a policy perspective with the South Koreans?
    Mr. McKeon. As you know, Congressman, I think even we 
discussed it last time I was here, we have made a decision to 
begin the formal consultations with our Korean partners. And I 
know there have been some meetings out in Korea looking at the 
siting and the funding issues. I am not an expert on Korean 
politics. I don't think this changes things for President Park 
and her approach to this. So I think we are optimistic we will 
get to a decision. I just don't have a timeline for you.
    Mr. Larsen. Yeah. Okay. All right.
    GAO [Government Accountability Office]? Is GAO here? No. 
Okay. So we just have a report from GAO on this. Okay. I have 
it right here. That is fine.
    Who can answer the question for me, the difference between 
what used to be called spiral development and now seems to be 
called concurrency? Are those the same things?
    Admiral Syring. Let me take that, and then maybe Mr. Pike 
can add. When we talk of--when I think about--I will give you 
my view. When I think about spiral development, I think about 
fielding a capability and then improving the capability over 
time.
    Concurrency is the initial problem in developing that 
initial capability, in terms of assuming too much technical or 
cost risk as you develop an end item. And to me, they are two 
different things.
    Mr. Larsen. Mr. Pike.
    Mr. Pike. Sir, I absolutely concur.
    Mr. Larsen. You concur with concurrency?
    All right. Well, I just--with the few seconds, I just don't 
believe we had a very good experience with spiral development. 
Others may disagree with me on that. It sort of became a 
moniker for getting things in the ground before they were 
ready. That is my definition of it. And so I guess I would 
differ with a few folks here that concurrency is something that 
is different than that.
    Admiral Syring. Sir, if I can just comment on that. That we 
have testified, I have testified in this committee that the 
direction was given to field this system quickly, and that very 
foundation that I talked about in terms of maybe doing another 
design turn or two before it was fielded, everybody says would 
have benefited that program. And everything that we are doing 
now is to work to improve what has been fielded, and I believe 
we are on the right path.
    Mr. Larsen. All right. Thank you.
    Mr. Rogers. I thank the gentleman.
    The Chair recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Admiral Gortney and Admiral Syring, am I correct that under 
the current plan for the Ground-based Midcourse Defense [GMD] 
system, there are no operational spare ground-based 
interceptors and that there will not be for at least 5 or 6 
years?
    Admiral Syring. Sir, we are--that is a correct statement. 
We are using everything that has been put under contract in 
terms of materiel buys to make our 44 by 2017, and to have 
enough interceptors to do the testing that we need to do over 
the next 3 or 4 years. Again, the new design, Mr. Brooks, is 
paramount to buying additional interceptors. I do not want to 
buy more of the same--of the old design.
    Mr. Brooks. In your judgment, when exactly will there be 
operational spares based on whatever is best designed?
    Admiral Syring. Sir, as part of this budget, our first 
priority is to get the redesigned kill vehicle tested and get 
the older interceptors, the CE-1 interceptors, recapped with 
that new design. And then as we work through that upgrade and 
fielding path, there will be spares that are generated in 
procurement to have some margin against the current inventory.
    Mr. Brooks. Do you have a judgment as to what calendar year 
we are talking about before we start building up the inventory 
and have operational spares?
    Admiral Syring. It will be in the 2025 timeframe most 
likely, with our priority being fixing what is in the field 
first.
    Mr. Brooks. Is there anything that we in Congress should be 
doing to expedite the availability of operational spares over 
the next 9 years?
    Admiral Syring. Sir, I would ask you to wait until we prove 
the new kill vehicle design and the new booster design and test 
it, and then we can talk about buying beyond what is in the 
budget today.
    Mr. Brooks. Admiral Gortney, do you have anything to add to 
what Admiral Syring has just stated?
    Admiral Gortney. No, sir. Again, the priorities that 
Admiral Syring has put in place, I fully support. We need to 
make that which we have as good as we can possibly make it 
while we then go to the next stage, and those are the proper 
investments.
    Mr. Brooks. All right. Back to Admiral Syring. Yesterday 
you mentioned in the Senate Subcommittee on Strategic Forces 
that MDA made the decision to pivot back to the GMD program and 
to increase the capacity and capability of the Ground-based 
Midcourse Defense system. With a decrease of $75 million for 
fiscal year 2017, what aspect of the Ground-based Midcourse 
Defense system will assume the most risk?
    Admiral Syring. Sir, if I can, we pivoted back to 44 by 
2017, the Secretary of Defense made that decision, and we are 
implementing it as MDA. That was a 2013 announcement by 
Secretary Hagel in March. The 70, I think it was $79 million, 
in terms of less funding than what we requested in 2017 for 
GMD, there are no components of that that are going to accept 
any appreciable risk because of that reduction.
    We requested a large amount of funding in 2016 to get many 
of the efforts that had not been started in GMD started, and 
you have been very supportive of that request. And then over 
time, some of those estimates have been refined. In addition, 
the cut that we took in the endgame, based on the budget 
agreement, in late 2015 had some effect on the GMD program 
carrying part of that cut.
    Mr. Brooks. North Korea has been testing ballistic missiles 
at an unprecedented rate. And with a projected $800 million 
reduction to Future Years Defense Program, what capabilities 
are we delaying into the future with respect to the ground 
systems and fire control on the one hand and the program 
operations on the other?
    Admiral Syring. We are not delaying anything that we 
planned for or programmed in 2016, based on that reduction. 
What we are delaying is--or taking a risk with specifically was 
increasing the SM-3 procurement. Nothing associated with the 
GMD system in terms of the planned modernization of the ground 
system, operations and support, safety, any of those aspects 
that are mission critical, have not been affected by that.
    Sir, I was planning in fiscal year 2016 for $7.8 billion in 
2017. And based on the budget agreement that came down in the 
end, at the end of 2015, my number in the President's budget 
was reduced to $7.5 billion as my share of the Department cut. 
So it is really not 8.3 to 7.5. My President's budget request 
in 2016 was actually 8.1. What was enacted was 8.3. So it was--
my request was 8.1, 7.8. It was enacted at 8.3. I would have 
been 7.8 without the budget agreement. Budget agreement kicked 
me down $300 million, kicked us down $300 million.
    Mr. Brooks. Thank you, Mr. Chairman.
    Thank you, Admiral Syring and Admiral Gortney.
    Mr. Rogers. I thank the gentleman.
    Admiral Syring, what are the risks of legislating or 
setting in stone a requirement to conduct a set number of tests 
before the RKV final production decision?
    Admiral Syring. Obviously, in this budget, we have a 
proposal and in our acquisition strategy that was signed by Mr. 
Kendall that there will be one nonintercept and one intercept 
test conducted to inform a production decision by him, not me. 
There will be another intercept in 2020 that will happen before 
really anything is fielded.
    I would ask that you let us go through where we are in the 
early stages of design and some of the testing of the 
components, all of it very methodical and very laid out in 
terms of the ground testing that will accompany our confidence 
before a flight test, before we legislate that it needs to be 
three or four or five flight tests.
    I think what will happen, sir, is that certainly at a 
minimum of two, the third flight test will give the warfighter 
the final confidence that the configuration is ready to be 
fielded. And I would say the third flight test, although not 
necessary for an acquisition decision, will be an important 
point for us before we go start pulling CE-1 interceptors out 
of the ground with new RKVs.
    Mr. Rogers. Thank you.
    The Chair now recognizes the gentleman from Hawaii, Mr. 
Takai, for 5 minutes.
    Mr. Takai. Thank you, Mr. Chairman. And, Admiral Syring, it 
is great to see you.
    I have questions for you, Admiral. The first is, 
alarmingly, this year North Korea conducted its fourth nuclear 
test and also launched a satellite into orbit using long-range 
ballistic missile technology. From your perspective, is there a 
gap when it comes to missile defense for Hawaii right now due 
to this threat?
    Admiral Syring. If I can ask the commander to speak to 
that, sir.
    Mr. Takai. Okay.
    Admiral Gortney. No, sir, I do not think there is a gap to 
that particular threat. We are prepared to engage and protect 
Hawaii, Alaska, and all the rest of the States with the 
existing system, and have high confidence in its success.
    Mr. Takai. Okay. Thank you.
    An Advanced Missile Defense Radar, or AMDR, prototype is 
being tested at PMRF [Pacific Missile Range Facility] in 2016. 
The AMDR radar would provide significant capability to detect 
and track advanced long-range ballistic missile threats. The 
prototype will be moved from PMRF for combat systems 
integration in 2017 unless a replacement radar is funded. I 
have submitted an amendment for advanced funding for planning 
and design to get a discriminating radar to Hawaii faster.
    Are you, Admiral Syring, supportive of this effort?
    Admiral Syring. Sir, as you know, Admiral Harris has been 
open about the need for additional sensor capability in Hawaii. 
And we are obviously very well aware of that requirement and 
are looking at what the sensor options could be. But right now 
it is a test site, and it has been a very effective test site. 
I think it is fair to say that we in the Department will look 
at options, to include sensoring, to see if there is a way to 
answer the combatant commander's requirement in this area.
    Mr. Takai. Okay. Thank you.
    And my final question has to do with the transitioning of 
this test site from a testing facility to an operational one. 
So in order to operationalize the PMRF, and specifically the 
Aegis Ashore facility at PMRF in Kauai, a capability already in 
place, it must first be certified against the very ICBMs and 
the long-range missile technology that North Korea is 
developing and testing. What are the plans to do this?
    Admiral Syring. Right now there are no plans to do it, sir, 
simply. And I would just characterize it a little differently, 
if I can, sir, in terms of the sensor sort of options in that 
part of the discussion with Admiral Harris is what additional 
sensor capability can we provide the existing Ground-based 
Midcourse Defense system in terms of more capability against a 
more complex threat for Hawaii specifically. And that is the 
discussion that I think needs to happen. And right now there 
are no plans moving forward outside the Department to do that. 
Not that we haven't heard and don't understand the combatant 
commander's desire; it is a matter of what materiel solutions 
are available and when, and how much do they cost, frankly. And 
then what are the operational impacts, what are the secondary 
effects. Operationalizing an Aegis Ashore site is no easy step. 
There would be many parts of that in that equation.
    And, sir, I don't know if you want to add.
    Admiral Gortney. We cover Hawaii today with the sensors 
that we have. But one of our key investment strategies in the 
way ahead is sensors improvement, because if we get sensor 
improvement, not just for Hawaii, but for the entire system, 
for the east coast as well, then we drive our effectiveness up, 
which drives our reliability way up, which drives our costs 
down, when we get that sensor discrimination that we need to 
continue to outpace the threat. So where the threat is today, 
with the investments that we have, we are confident we can 
continue to protect all of the States. And should that change, 
then we will adjust fires on that investment strategy.
    Mr. Takai. Right. So for us in Hawaii, as well as 
discussions occurring in the media, and I think Admiral Harris 
has been part of those discussions, there is some indication of 
support and interest in operationalizing the facility on Kauai, 
number one, and, number two, to use the Aegis Ashore platform 
as the way forward.
    I guess my question is--oh. I don't have--let me just say 
this. I think we can't wait until North Korea launches 
something that has precision that can detect and hit something 
similar to Hawaii. We have got to be a little bit more 
proactive.
    Admiral Syring. Sir, let me just add to finish, if I can, 
Mr. Chairman----
    Mr. Takai. Okay.
    Admiral Syring [continuing]. That there is an ongoing 
sensor analysis of alternatives, that is extensive, looking at 
all sensor gaps around the world for not just us, but for other 
agencies and services, and certainly the Hawaii sensor 
capability is part of it.
    Mr. Takai. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Chairman 
Turner, for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Admiral, when you were asked about whether or not we need 
an east coast missile defense site, your answer was, ``not at 
this time,'' meaning we don't need it now, which is a good 
thing we don't need it now, because we can't possibly have one, 
because there is a long lead time within which we need to 
construct one.
    I would like to work with you to clarify your answer, 
because I think there are those with your answer of ``we don't 
need it at this time'' or ``we don't need it now,'' who might 
use that as an answer to indicate that the preparation that 
this committee has undertaken for an east coast missile defense 
site is needless or unnecessary. You don't mean that, right? 
You don't mean that the work that Congress has done to prepare 
for an east coast missile defense site is needless or 
unnecessary?
    Admiral Syring. Absolutely not.
    Mr. Turner. Secondly, as you have articulated, I think, 
very, very well, the rising threats from North Korea and Iran 
are increasing threats that we are seeing that are happening at 
just almost a frightening pace. Do you foresee a time at which 
we might need the capability to respond to these threats of an 
east coast missile defense site?
    Admiral Syring. If I----
    Mr. Turner. I was asking you, Admiral, because, again, they 
were asking in a manner, I think, to utilize----
    Admiral Syring. Okay.
    Mr. Turner [continuing]. Your statement----
    Admiral Syring. Yes, sir.
    Mr. Turner [continuing]. To indicate that it is not 
necessary.
    Admiral Syring. Let me take that. We have a very systematic 
investment plan, which we have talked about, in terms of how we 
are improving the current fielded interceptors, and that is 
extensive and has required funding and budget this committee 
has supported, sir. And you are----
    Mr. Turner. Well, you are looking out for the future----
    Admiral Syring. Absolutely.
    Mr. Turner [continuing]. You are looking out, and you do 
see a time----
    Admiral Syring. I do.
    Mr. Turner [continuing]. Where that additional capability 
would be?
    Admiral Syring. I see a time when additional capacity will 
need to be talked about----
    Mr. Turner. Thank you.
    Admiral Syring [continuing]. Depending on where Iran goes 
with their threat development.
    Mr. Turner. Thank you, Admiral.
    Mr. McKeon, this committee is charged with the 
responsibility of looking at our architecture to be able to see 
what our adversaries are doing and also respond to what our 
adversaries see we are doing. One of the areas that we are 
concerned with, obviously, is the Open Skies Treaty and Russia. 
General Stewart, head of the DIA [Defense Intelligence Agency], 
testified that Russia gets, quote, ``incredible foundational 
intelligence on critical infrastructure, bases, ports, all of 
our facilities. So my perspective,'' again being his, ``it 
gives them a significant advantage, and I would love to deny 
the Russians having that capability.''
    Mr. McKeon, is Russia permitting overflights of 
Kaliningrad, which of course are permitted under the treaty?
    Mr. McKeon. No. They have placed restrictions on flights 
over Kaliningrad.
    Mr. Turner. Is that a violation of the Open Skies Treaty?
    Mr. McKeon. We have raised that as a compliance concern, 
Mr. Turner, and I believe it is highlighted a little 
differently in the compliance report we have just submitted to 
you.
    Mr. Turner. Have you personally advocated that, as in your 
role, you make a recommendation that Russia be found in 
violation?
    Mr. McKeon. Sir, I hesitate to talk about what I recommend 
to my Secretary in internal deliberations. What I can say to 
you here, and I would be happy to discuss in a little more 
detail in the closed session, is we have expressed concern as a 
government about Russia's compliance with Open Skies. We have 
taken a view within our government that while we have 
obligations under the treaty, we will perform under those 
obligations and no more; that is, we will not give them any 
extra benefit.
    Mr. Turner. Well, Mr. McKeon, obviously the concern that we 
have is if there are those who believe, perhaps yourself even--
because our indication is that we are hearing that you do 
believe that they are violating the Open Skies Treaty, and 
there are others who do believe so as a result of issues like 
Kaliningrad and overflights--that by our continued compliance, 
especially in light of General Stewart saying that it puts it 
as a distinct advantage, that we are in fact, you know, showing 
all of our cards while we are allowing them to restrict our 
capabilities. I mean, isn't that a significant concern, is we 
are letting somebody else see what we are doing and we are not 
getting to see what they are doing, supposedly that was 
permitted under a treaty?
    Mr. McKeon. Well, Congressman, we are overflying the 
Russian Federation territory. In fact, we have more Open Skies 
flights over Russia than Russia does over the United States. 
There are restrictions, as you----
    Mr. Turner. I think it isn't an issue just of number of 
flights, but isn't it an issue of advanced sensors? I mean, 
hasn't the Supreme Allied Commander indicated he has concerns 
over the advanced sensors that might be used in overflights 
over Europe?
    Mr. McKeon. Yes. As you will recall, Congressman, a couple 
of years ago, the Russians sought to certify an electro-optical 
sensor on the plane they used to fly over Europe. It is a 
digital rather than using wet film. And we went through the 
certification process on that and learned a lot of lessons from 
that for possible certification of a plane that would overfly 
the United States with a similar capability.
    Mr. Turner. Mr. McKeon, obviously since we have concerns 
that Russia may be violating the Open Skies Treaty, and from 
the testimonies we have been receiving, there are serious 
concerns about what Russia learns in the Open Skies Treaty. And 
also the administration now, although it took forever, is 
finally acknowledging Russia's violating of the INF Treaty.
    Shouldn't there be a concern for a pause in extending the 
START [Strategic Arms Reduction] Treaty for an additional 5 
years? And could you please tell us if you believe it is 
premature of the administration? I understand that they are 
pushing for a 5-year extension of the New START Treaty. Is 
there concern that we might be needing to evaluate Russia's 
actions, especially in their aggressiveness that we are seeing 
in Ukraine and the overflights? We all just watched the news 
and watched their planes buzzing us. Is there a point where we 
might--should be pausing?
    Mr. McKeon. Congressman, as an administration, we have not 
made a decision about whether to seek the extension of the New 
START Treaty, which does not expire until 2021. I think----
    Mr. Turner. Would your recommendation be that it is 
premature to do that now?
    Mr. McKeon. Again, sir, I don't want to give you what my 
recommendation would be in internal deliberations. What I would 
say is that one of the factors that we need to take into 
account is the concerns that you have identified and----
    Mr. Turner. Mr. McKeon, I just want you to know that----
    Mr. McKeon [continuing]. We share.
    Mr. Turner [continuing]. I think it is really difficult for 
us as policymakers to have people like yourself that have such 
important positions as the Principal Deputy Under Secretary of 
Defense for Policy to say that you don't want to tell us what 
your recommendations are with respect to policy.
    Thank you, Mr. Chairman.
    Mr. Rogers. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Louisiana, Mr. 
Fleming, for 5 minutes.
    Dr. Fleming. Thank you, Mr. Chairman.
    And, Admirals Gortney and Syring, this question is for you. 
Recently, Bill Gertz of the Washington Free Beacon reported 
that North Korea has displayed a new road-mobile ICBM. And does 
North Korea, in fact, have such capability and is it testing 
solid rocket motors for such a missile?
    Admiral Gortney. Sir, the Intel [Intelligence] Community 
assesses the probability of North Korea fielding a successful 
road-mobile ICBM with a miniaturized nuclear device that can 
range the homeland as low.
    As the commander accountable for defending the homeland, I 
choose to assess that he does have that capability. And I think 
it is the prudent course of action, it is what I think the 
American people would like me to base my readiness assessment 
on, to be prepared to engage it. So we are prepared to engage 
it today, 24 hours a day, 365 days out of the year.
    As it progresses, the real key piece here is he hasn't 
tested the end-to-end capability in order to do it. He has 
displayed the ability through the TD-2 space launch to put that 
in there, but the reentry vehicle that needs to go with it, the 
solid rocket fuel, we need to see that test, that end-to-end 
test. But I am not waiting for that end-to-end test on my 
assessment.
    Dr. Fleming. Okay. And sort of an extension of that 
question, can North Korea's KN-08 road-mobile ICBM target all 
of the United States if indeed--or I guess a better way to put 
it based on your response is, are you assuming that it can 
target anywhere in the United States, including the continental 
United States?
    Admiral Gortney. Yes, sir. I assess that it can range the 
homeland that I am tasked to defend, and we are prepared to 
engage it for the area that we assess it to be able to reach.
    Dr. Fleming. Okay. And can you remind this committee why 
road-mobile missiles are a defense challenge for us?
    Admiral Gortney. Because they are mobile and they are very 
easy to conceal. Previously, you know, when North Korea 
assembles a rocket, we have intel that we can detect through 
all forms of intel. When you get into a road-mobile target, it 
is very, very difficult to be able to track, quickly set up, 
and shoot. Most of my career, I dropped bombs for a living, and 
mobile targets are what always caused me pause. And that is 
exactly why this is a tough challenge for us.
    Dr. Fleming. So while it may be difficult to detect, you 
suggested a little earlier that its payload may not be as 
significant as something that would be ground based. Would that 
be fair to say, or what is your opinion on that?
    Admiral Gortney. No, sir. We assess that they have the 
ability on the KN-08 to--I assess that he has the ability to 
miniaturize a nuclear weapon and range to homeland with that 
warhead.
    Dr. Fleming. I see. Okay.
    Admiral Gortney. Again, but we have not seen the end-to-end 
test of that.
    Dr. Fleming. Right. Okay. Thank you, and I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. McKeon and Admiral Gortney, in your written statement, 
you both mentioned, quote, ``left-of-launch,'' unquote, 
capabilities. Can you elaborate? Are you talking about 
destroying ballistic missiles on the ground before they are 
launched at us? Is that the point?
    Admiral Gortney. I can go into some detail at the unclass 
[unclassified] level and I will go into much greater detail for 
you in the classified level. But the current path that we are 
on with both theater ballistic missile defense and ballistic 
missile defense for the homeland against the ICBM threat is a 
very expensive approach. We are shooting down with very 
expensive rockets, potentially very inexpensive rockets, and we 
are only engaging it in midcourse. For both types of threats it 
is midcourse as we go forward.
    What we need to be able to do is engage it throughout its 
particular kill chain, so keep them from getting on the rails, 
detect them, and get them on the rails, hit them while they are 
still on the rails before launch, provided we have the rules of 
engagement to do that; boost phase engagement, which is why the 
laser designation--laser approach that MDA is doing is so 
important, multiple times, knock down the raid count; and then 
continue to engage it in midcourse, but with more warheads in 
space, smarter, more reliable multi-object kill vehicle, maybe 
five warheads in space that are actually communicating with 
each other to drive the raid count down significantly. And 
those are the investments that MDA, with your all's full 
support, have put in place to see which of those technologies 
throughout a flight of the missile is so important for us.
    Mr. Coffman. Okay. What kind of intelligence would we need 
for the President to order a preemptive attack against a state 
preparing to launch a missile against the United States?
    Admiral Gortney. I am going to have to take that at the 
classified level.
    Mr. Coffman. Okay. How well are we postured to execute 
left-of-launch operations? Could we execute left-of-launch 
operations today if we had to?
    Admiral Gortney. I will defer to the classified session and 
answer you there, sir.
    Mr. Coffman. What more can Congress do to ensure our 
military forces have the capabilities and intelligence they 
would need to execute left-of-launch operations?
    Admiral Gortney. Continue to make the investments from the 
MDA realm, support those investments that we are asking for, 
particularly the--make what we have the best as what we 
possibly can make it, and then those investments in R&D 
[research and development].
    Now, there is another avenue that we can talk about in 
classified for those same sorts of investments are absolutely 
critical. But I also think it is important to highlight that 
what Admiral Syring has put in the budget is research and 
development to see what technologies will play out. Once we 
make a decision of which of those are going to give us the best 
value, then we will be having to come to your committee again 
for investments to actually field those capabilities.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    Admiral Syring, how much longer would it take and how much 
more would it cost for you to develop, test, and field a long-
range discrimination radar in the 5000 series in a redesigned 
kill vehicle?
    Admiral Syring. If I can just clarify, Mr. Chairman, in DOD 
5000?
    Mr. Rogers. Yes.
    Admiral Syring. Sir, I haven't done that analysis, but I 
would be happy to. We were able to--and I will just reiterate 
this. We were able to, with Mr. Kendall's help, Admiral 
Winnefeld's help at the time, turn our requirement through the 
JROC [Joint Requirements Oversight Council] process in about 6 
weeks, 6 weeks, and that is giving me the top cover for this 
radar.
    And our decision to use existing technology, I thought, was 
huge in terms of not having to go through the risk reduction 
phase between Milestone A and B, where we chose--and I think I 
got a question over here--the similar GaN [gallium nitride], S-
band technology that is in the AMDR [Air and Missile Defense] 
radar. So there were some decisions that we made both in the 
requirement and in the technology that we chose that enabled us 
to go to contract award in less than 2 years.
    Mr. Rogers. Okay. Admiral, recently the press reported that 
Russian Foreign Minister Lavrov said he had obtained an 
agreement with Secretary Kerry to launch a dialogue about the 
U.S. missile defense shield in Eastern Europe. Moscow argues 
the system is a threat to its security.
    As the director of Missile Defense Agency, what do you know 
about this dialogue and what has the United States signed up to 
discuss?
    Admiral Syring. I am not aware of the dialogue, and my 
answer is, nothing.
    Mr. Rogers. Mr. McKeon, what can you tell us about that, if 
anything?
    Mr. McKeon. Mr. Chairman, we have been talking to the 
Russians on and off since 2009 about what the EPAA [European 
Phased Adaptive Approach] is and is not. And I think they have 
a pretty clear understanding of the system, but they continue 
to make various arguments that it is a threat to them or a 
violation of the INF [Intermediate-Range Nuclear Forces] 
Treaty, or other statements that we don't agree with and find 
unacceptable. Just in the last couple of days, there was an 
assertion made by some senior Russian security official that we 
were going to put nuclear warheads on missiles at the site in 
Romania and threaten Russia, which is just nonsense.
    Mr. Rogers. Mr. McKeon, do you understand that in any way 
that the United States is willing to depart from its current 
position on the EPAA, what we will have laid out to happen with 
that?
    Mr. McKeon. No.
    Mr. Rogers. Okay. Admiral Syring, Secretary Kerry has been 
spending quite a bit of time focused on missile defense lately. 
He has also invited the People's Republic of China to receive 
technical briefings on the capability of THAAD, including if 
deployed in South Korea. What do you know about the briefings 
the Secretary has offered, if anything?
    Admiral Syring. Nothing, sir. We haven't been asked.
    Mr. Rogers. All right. Admiral, you are aware of MDA or MDA 
contractors being targeted or, quote, ``hacked,'' by groups or 
entities linked to China or the Chinese military?
    Admiral Syring. Yes, sir.
    Mr. Rogers. You are. Can you tell us anything about that in 
open session?
    Admiral Syring. Let me just give you the answer 
unclassified, and then we can go deeper classified, if that is 
okay, Mr. Chairman.
    Mr. Rogers. Okay.
    Admiral Syring. I testified yesterday that I viewed the 
cyber threat that I specifically faced with MDA and the systems 
that we are fielding on par with any intercontinental ballistic 
missile threat that either Iran or North Korea possess. We have 
taken inordinate steps to protect both our classified and 
unclassified networks from attack, constant 24/7 monitoring 
with teams in place, plus good materiel protections of those 
systems.
    My biggest concern remains in our cleared defense 
contractor base and their protections. I think my view is, is 
that they are continuing to try to attack my government 
networks every day, classified and unclassified, but where they 
are going next, and we have gotten examples of this, is to my 
cleared defense contractors with the unclassified controlled 
technical information. And what we have got to do is get them 
up to where we are in terms of our protection levels. And I 
view it as a very near term, very real requirement across the 
BMDS [Ballistic Missile Defense System].
    Mr. Rogers. Thank you.
    The ranking member is recognized for any additional 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I appreciate the 
expeditious nature of this public portion of the hearing. I am 
going to hold my further questions to the classified session.
    Mr. Rogers. Are there any other members that have questions 
in this open session?
    Mr. McKeon. Mr. Chairman, I could address the question you 
gave to Admiral Syring about----
    Mr. Rogers. Please do.
    Mr. McKeon [continuing]. Secretary Kerry and China and 
THAAD.
    Mr. Rogers. Please.
    Mr. McKeon. Similar to the Russians, we have offered to 
explain to them what THAAD is and is not and why it is not a 
threat to their deterrent were we to deploy it in the Republic 
of Korea. They have not taken us up on this offer. We have a 
firm view, as expressed previously, this is about protecting 
our deployed forces and our Korean partners, and has nothing to 
do with China or China's deterrent, and they shouldn't worry 
about it.
    Mr. Rogers. But we are going to talk more about that in the 
classified session, but I appreciate that comment.
    We are supposed to be called for votes at any minute, so I 
think what I will do is rather than get us into the classified 
setting and then have to be pulled away, we will just adjourn 
until 10 minutes after the next vote series concludes. If they 
call us in the next 5 or 6 minutes, you are looking at about 45 
minutes after that, so it will be around 3:45 to 3:50 when we 
reconvene for the classified portion of this hearing.
    And with that, this hearing is suspend--no, it is not 
adjourned. We are not----
    Admiral Gortney. Recessed.
    Mr. Rogers. Recessed. There you go. I knew you was good for 
something.
    [Whereupon, at 3:00 p.m., the subcommittee proceeded in 
closed session.]



      
=======================================================================




                            A P P E N D I X


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 14, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 14, 2016

=======================================================================

      

           RESPONSES TO QUESTIONS SUBMITTED BY MR. GARAMENDI

    Admiral Syring. Yes, the House Appropriations Committee supported 
MDA's PB16 Request of $19.9 million for Directed Energy Prototype 
Development in the Technology Maturation Initiatives program element.   
[See page 7.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 14, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Is the United States willing to depart in any way from 
the EPAA as laid out and planned today?
    Mr. McKeon. Our commitment to EPAA remains firm. The approach is 
specifically designed to be able to adapt to the ballistic missile 
threat posed to our deployed forces and allies in Europe. That said, we 
have no plans to depart from the deployment and sustainment of the 
missile defense sites in Europe, or any other part of the EPAA, as it 
is planned today.
    Mr. Rogers. As the ranking DOD witness here today, does the 
Department support a partnership between the UAE and the U.S. to 
develop a missile defense capability to respond to emerging threats 
(e.g., an evolved extended-range THAAD system)?
    Mr. McKeon. DOD does support a partnership between UAE and the 
United States to develop or acquire missile defense capabilities to 
respond to emerging threats. It is premature to speculate on the 
specific systems that might be appropriate for addressing those 
threats.
    Mr. Rogers. I understand the U.S. is discussing a Foreign Military 
Sales case with Qatar for THAAD. Why is this case important for Qatar 
and THAAD? Can we work together to accelerate this case to make sure 
Qatar has these critical missile defense systems prior to the World Cup 
in 2022? How?
    Mr. McKeon. Qatar is an important partner in missile defense 
activities in the Gulf region that has demonstrated its commitment to 
acquiring a layered missile defense architecture by purchasing PATRIOT 
PAC-3 systems and exploring the possibility of buying the Terminal 
High-Altitude Air Defense (THAAD) system and an early warning radar. 
Qatar has expressed a desire to phase acquisition of these elements. 
Qatar signed a Foreign Military Sales (FMS) case with the United States 
Army for PATRIOT PAC-3 and is in ongoing discussions concerning an 
early warning radar. The Department will continue to support Qatar's 
acquisition of ballistic missile defense capabilities. Additionally, we 
will continue working with Qatar within the context of the Gulf 
Cooperation Council to increase interoperable regional missile defense 
capabilities.
    Mr. Rogers. Why is it important that the European Phased Adaptive 
Approach reach its Initial Operating Capability, especially the Romania 
Aegis Ashore Site, at the Warsaw Summit this summer? Why is that 
important for the United States, our allies, and the NATO alliance 
itself?
    Mr. McKeon. NATO Ballistic Missile Defense (BMD) remains critical 
to U.S. and Allied security. As long as Iran continues to develop and 
deploy ballistic missiles, the United States will work with our allies 
and partners to defend against this threat. The aim of NATO BMD is to 
provide full coverage and protection of all NATO European populations 
and U.S. forces in Europe from ballistic missiles originating from the 
Middle East. Moreover, NATO's declaration of BMD Initial Operational 
Capability (IOC) at Warsaw sends three important messages: first, that 
the United States is committed to the defense of our deployed forces 
and Allies by increasing the capability of NATO BMD; second, that 
Allies recognize the importance of this contribution; third, that NATO 
follows through on its commitments to field a missile defense command 
and control capability.
    Mr. Rogers. What is left-of-launch capability? In other words, 
you're talking about destroying ballistic missiles on the ground before 
they're launched at us?
    Mr. McKeon. Left-of-launch capabilities contribute to defeating or 
degrading ballistic missiles before they are launched. These 
capabilities may be non-kinetic or kinetic; they span a wide range of 
tools developed across the Department, and include both active and 
passive activities. These capabilities provide U.S. decision-makers 
additional tools and opportunities to defeat missiles across the entire 
kill-chain. This reduces the burden on our ``right-of-launch'' 
ballistic missile defenses. Taken together, ``left-of-launch'' and 
``right-of-launch'' capabilities will lead to a more effective and 
resilient approach to defeat adversary ballistic missile threats.
    Mr. Rogers. Please detail any exercises, table top exercises, or 
war games you have participated in concerning left-of-launch ballistic 
missile defeat. In such exercises, were there any areas in which it was 
observed that policy guidance was required to successfully carry out 
such capability? If so, please identify and describe such observed 
areas needing policy guidance from OSD.
    Mr. McKeon. Although I have not personally participated in a policy 
wargame involving left-of-launch missile defense, the recently-
completed NIMBLE TITAN 16 wargame examined left-of-launch missile 
defeat, to include the circumstances under which several partners and 
allies would support left-of-launch efforts.
    I believe we have sufficient policy guidance at this time to carry 
out left-of-launch ballistic missile defeat successfully.
    Mr. Rogers. Can the KN-08 road-mobile ICBM target all of the United 
States, including the continental United States? Please reply in 
detail. Please ensure your response is unclassified to the maximum 
extent possible.
    Admiral Gortney. DIA assesses at the unclassified level that the 
KN08 ICBM has a maximum range of over 12,000 kilometers, which would 
enable it to strike all of the continental United States if 
successfully deployed.
    Mr. Rogers. Recently, Bill Gertz of the Washington Free Beacon has 
reported that North Korea has displayed a new road-mobile ICBM. Does 
North Korea have a new road-mobile ICBM? Is it testing solid-rocket 
motors for such a missile? Please reply in detail. Please ensure your 
response is unclassified to the maximum extent possible.
    Admiral Gortney. During a parade in October 2015, North Korea 
displayed a multi-stage missile that differed in design from the KN08 
ICBMs that were featured in previous parades. However, we don't know 
how the new missile is configured, what propulsion system it uses, or 
whether it represents a workable missile design.
    Mr. Rogers. Can you remind this committee why road-mobile missiles 
are a defense challenge for us? And what about such missiles with solid 
fuel?
    Admiral Gortney. Mobile missiles increase an adversary's 
operational flexibility and survivability. This complicates active 
defense planning. Changes to fuel types indicate some level of 
programmatic advancement, potentially increasing their reliability.
    Mr. Rogers. Who is integrating the homeland cruise missile defense 
program for the DOD? We have Army systems, Air Force systems, Navy 
systems. Who is in charge? Is there a single acquisition authority?
    Admiral Gortney. NORAD conducts aerospace warning and control of 
North America and, in conjunction with USNORTHCOM, determines the 
operational requirements for defense against aerospace threats, to 
include cruise missiles. In turn, the Services provide the capabilities 
to meet the approved defense requirements, and NORAD operationally 
integrates the homeland cruise missile defense capabilities for the 
U.S. and Canada. Recommend your acquisition authority questions be 
addressed to OUSD (AT&L).
    Mr. Rogers. Is JLENS important? Why? Is there a gap in our security 
architecture without it? Please reply in detail. Please ensure your 
response is unclassified to the maximum extent possible.
    Admiral Gortney. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Am I correct that under the current plan for the 
ground-based midcourse defense system, there are no operational spares 
GBIs for, is it 5 or 6 years? It's well into the 2020s, right? What 
happens if there is an unplanned failure? Please reply in detail. 
Please ensure your response is unclassified to the maximum extent 
possible.
    Admiral Gortney. The Missile Defense Agency (MDA) is leading this 
effort and thus we recommend contacting VADM Syring for sparing 
specifics. MDA remains on track for 44 GBIs emplaced and available by 
2017, in accordance with Secretary of Defense direction.
    Mr. Rogers. Is this reality (the lack of operational spares 
referenced in the previous question) an artifact of years of under-
investment in the GMD system? What is the best way to mitigate this 
risk?
    Admiral Gortney. This question is specific to Ballistic Missile 
Defense System programmatics; recommend contacting the Missile Defense 
Agency regarding investments in the GMD system.
    Mr. Rogers. What is left-of-launch capability? In other words, 
you're talking about destroying ballistic missiles on the ground before 
they're launched at us?
    Admiral Gortney. Left-of-launch capabilities encompass all military 
efforts to deny the adversary the ability to launch ballistic missiles. 
The development of left-of-launch capabilities provides the U.S. 
decision-makers additional tools and opportunities to defeat ballistic 
missiles before they are launched.
    Mr. Rogers. Please detail any exercises, table top exercises, or 
war games you have participated in concerning left-of-launch ballistic 
missile defeat. In such exercises, were there any areas in which it was 
observed that policy guidance was required to successfully carry out 
such capability? If so, please identify and describe such observed 
areas needing policy guidance from OSD.
    Admiral Gortney. USNORTHCOM participated in the Joint Staff-hosted 
NIMBLE STAR II TTX (March 2015), as well as the PACAF-hosted NEPTUNE 
HAWK TTX (July 2015). For execution of our homeland Ballistic Missile 
Defense mission, we have sufficient policy guidance.
    Mr. Rogers. What kind of intelligence do we need to possess in 
order for the President to order a preemptive attack on a state 
possessing nuclear weapons?
    Admiral Gortney. The President would likely need timely and 
reliable intelligence on the adversary's intentions, as well as 
persistent tracking of the adversary's strategic assets to ensure 
preemptive attack success and also to mitigate risk of retaliation.
    Mr. Rogers. Are we outpacing the threat? How do you evaluate 
``outpacing'' the threat? Based on what criteria? Please provide a 
detailed list of adversary developments regarding ballistic missile 
capability that affected our ability to ``outpace'' the threat. What 
developments by adversaries, if any, have surprised you? Please reply 
in detail. Please ensure your response is unclassified to the maximum 
extent possible.
    Admiral Gortney. The Ground-based Mid-course Defense (GMD) system 
is capable of defeating the ICBM threat currently posed by North Korea. 
However, the North Korean threat continues to mature, while 
developments within the Iranian missile program could lead to the 
emergence of an ICBM threat from that country in the coming years as 
well. We believe that continued funding of programs, such as the Re-
designed Kill Vehicle, Long Range Discrimination Radar, two/three-stage 
selectable Ground-based Interceptor, and the Space-based Kill 
Assessment experiment, is necessary to maintain our strategic 
advantage.
    Mr. Rogers. It has been widely asserted that one of the most likely 
ballistic missile threats to U.S. forces would be a raid scenario 
involving several enemy ballistic missiles fired near simultaneously. 
How is the MDA preparing for this scenario and what testing is planned 
to validate our BMDS capabilities against this threat?
    Admiral Syring. The BMDS and each of the elements (including 
Ground-based Midcourse Defense (GMD); Terminal High Altitude Area 
Defense (THAAD); Aegis; and Command and Control, Battle Management, and 
Communications (C2BMC)) are designed and tested to provide performance 
against raids with multiple ballistic missile threats in the air 
simultaneously. The BMDS Specification includes raid requirements that 
are allocated to element-level specifications.
    MDA has demonstrated raid defense capability in both ground tests 
and flight tests at the system and element levels. MDA has successfully 
conducted testing for homeland and regional defense against raids in 
numerous integrated ground tests that incorporate hardware-in-the-loop 
assets and threat injection, as well as distributed ground tests that 
incorporate deployed operational assets. MDA has conducted Flight Test 
Standard Missile (FTM) 13, demonstrating Aegis against two near 
simultaneous missile launches. For the THAAD system, MDA conducted 
Flight Test THAAD (FTT) 12, successfully demonstrating THAAD against 
multiple near simultaneous missile launches. At the system level, MDA 
conducted Flight Test Integrated (FTI) 01 in 2012 with Aegis, THAAD, 
and Patriot engaging three ballistic missile targets and two cruise 
missile targets. MDA conducted Flight Test Operational (FTO)-01 in 2013 
with Aegis and THAAD each engaging a ballistic missile target. MDA 
conducted Flight Test Operational (FTO) 02 Event 2a in 2015 with Aegis 
and THAAD engaging two ballistic missile targets and one cruise missile 
target.
    MDA will continue to validate BMDS capabilities against raids in 
future ground testing. In addition, MDA has planned several flight 
tests in the Integrated Master Test Plan version 17.1 that involve 
ballistic missile raid scenarios. FTO 03 Event 1 will test Aegis and 
Aegis Ashore against two ballistic missiles. FTO 03 Event 2 will test 
Aegis, THAAD, and Patriot against three ballistic missiles and two 
cruise missiles. FTO 04 will test GMD simultaneously engaging two long-
range ballistic missiles.
    Mr. Rogers. We know that the MDA has utilized several low cost 
target options to meet schedule and testing requirements against short-
range and medium-range range threats in recent years. What steps is the 
MDA taking to identify and develop new low cost target options to meet 
emerging testing requirements for intermediate-range (IRBM) and inter-
continental (ICBM) ballistic missile threat scenarios.
    Admiral Syring. The Missile Defense Agency (MDA) is coordinating 
with the Intelligence Community to understand assessments related to 
emerging threats in order to establish requirements for all target 
development and testing needs using intermediate-range ballistic 
missile (IRBM) and intercontinental ballistic missile (ICBM) class 
targets. Regarding lowering the costs of the current IRBM and ICBM 
targets, MDA has implemented innovative solutions to address near-term 
threat changes by leveraging previously incurred non-recurring 
engineering and making incremental upgrades to meet target requirements 
related to evolving missions and threat. Additionally, MDA is 
conducting market research through a request for information to 
determine interest and capability to design, develop, produce, and 
launch multiple range-class targets. The market research will shape 
future target acquisition decisions to reduce the cost of flight tests.
    Mr. Rogers. We understand that the MDA has successfully flown low 
cost, subscale targets utilizing surplus solid rocket motor assets to 
meet specific mission requirements and critical schedule milestones. Is 
the MDA taking steps to assure that solid rocket motors will continue 
to be available to be used for low cost targets in support of BMDS 
testing?
    Admiral Syring. Current Missile Defense Agency (MDA) Integrated 
Master Test Plan baseline includes low cost targets utilizing surplus 
solid rocket motors through fiscal year 2022. As a part of the MDA 
objective to reduce the cost of targets, the program continually 
monitors U.S. Government surplus and solid rocket motor industry 
production for applicability to meet MDA's testing requirements to meet 
current and future acquisition needs.
    Mr. Rogers. Please identify and summarize the studies MDA has 
conducted or participated in evaluating missile defense options and 
limitations against boost-glide systems and maneuvering systems.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Are you funded to develop and deploy a defense against 
boost-glide missiles, like those being developed by Russia and China? 
What are the anticipated ranges of potential defensive options that 
have been considered?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Please identify each CAPE review of an MDA program or 
proposed program over the past five years and the length/duration of 
such review and its cost to MDA.
    Admiral Syring. The CAPE reviews from 2006 through 2014 are listed 
below. The total cost to MDA is approximately $430,000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    .epsMr. Rogers. What are current requirements for CAPE AOAs of MDA 
programs or proposed programs? What document, memoranda, or regulation 
requires such CAPE AOA review of an MDA program?
    Admiral Syring. There are no requirements that require CAPE led 
Analysis of Alternatives (AOA) for MDA programs. However, MDA and CAPE 
periodically receive guidance, and mutually agree to conduct analysis 
of MDA programs. In addition, Congress periodically mandates CAPE led 
studies of MDA programs.
    Mr. Rogers. How much do GAO reviews cost MDA each year?
    Admiral Syring. The total approximate annual amount that MDA spends 
on GAO reviews is $1,754,008. This calculation is based on total man 
hours needed to support varying requirements for audits, including 
activities such as composing answers to numerous questions, locating 
and transmitting previously approved documentation, and supporting 
various meetings and reviews.
    Mr. Rogers. Are there duplicative reporting requirements that could 
be consolidated or eliminated? If yes, please identify.
    Admiral Syring. The Missile Defense Agency (MDA) does not currently 
have any duplicative congressional reporting requirements. However, 
proposed language in the House FY 2017 National Defense Authorization 
Act, H.R. 4909, Section 1664, would place significant duplicative 
reporting requirements on MDA. This provision requires semi-annual 
reporting on the Ballistic Missile Defense System (BMDS) test plan, 
costs and test plan changes and rationale, which duplicates existing 
reporting accomplished through annual submission of the Integrated 
Master Test Plan and BMDS Accountability Report, the BMDS Quarterly 
Update briefings and annual Staffer Day presentations.
    Mr. Rogers. We often ask the combatant commanders and military 
services for their unfunded requirements list. Do you have an unfunded 
requirements list? What capabilities were requested in the cocom IPLs 
for FY13-FY17 that didn't appear on the coordinated PCL or ACL? Please 
reply in detail. Please ensure your response is unclassified to the 
maximum extent possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. What would be the total funding required, by system, to 
meet the combatant command requirement for THAAD and SM-3s and Aegis 
BMD software and hardware sets? Please reply in detail. Please ensure 
your response is unclassified to the maximum extent possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Are there program gaps in ballistic missile defense? 
Are there gaps you have not yet focused on? Please reply in detail. 
Please ensure your response is unclassified to the maximum extent 
possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. If MDA was developing and procuring these new Patriot 
radars with the acquisition authorities you have, how much time would 
it take you to do it?
    Admiral Syring. Acquisition timelines for development programs vary 
considerably depending on the maturity of the components being 
developed and the amount of integration and testing required prior to 
deployment. It is difficult to predict acquisition schedules without a 
prior knowledge of these variables. For example, Long Range 
Discrimination Radar (LRDR) is developing and integrating relatively 
mature technology. The LRDR program plan for development and 
integration is less than five years from contract award to Initial 
Fielding.
    Mr. Rogers. During a recent hearing before the House Armed Services 
Committee, Under Secretary Sean Stackley testified that, because of the 
MDA's unique acquisition authorities, you were able to successfully 
deploy in almost record time the Aegis Ashore site in Romania. Do you 
agree with this assessment?
    Admiral Syring. Yes, MDA's streamlined acquisition authorities 
contributed to the rapid development, installation, and deployment of 
the Romania Aegis Ashore site. Another significant contributor to the 
shortened timeline is the close collaborative relationship between the 
MDA Aegis Ashore program office and Navy, including leveraging existing 
Navy contracts for acquisition of Aegis Ashore weapon system equipment 
common with Aegis BMD ships.
    Mr. Rogers. How much longer would it take and how much more would 
it cost to develop, test and field Poland Aegis Ashore site on the 
planned timeline in the normal 5000 series rules and regulations? Would 
MDA be able to meet the President's 2018 goal?
    Admiral Syring. It is difficult to assess the additional cost and 
schedule required to field the Poland Aegis Ashore site under standard 
5000-series ``rules.'' Poland-specific activity is estimated to be 
completed within four years. Initial hardware components were procured 
in 4th quarter fiscal year 2014 (4QFY14) and first fabrication on site 
was 1QFY16 with planned operations in 1QFY18. Fielding the Poland site 
is accelerated because of lessons learned from developing and deploying 
Aegis Ashore sites at the Hawaiian Pacific Missile Range Facility and 
Romania. Without this advantage and MDA's streamlined processes and 
decision making authority, it would be difficult to maintain the 
aggressive timeline to meet the European Phased Adaptive Approach Phase 
3 requirement of December 2018.
    Mr. Rogers. How much longer would it take and how much more would 
it cost to develop, test and field Long-Range Discrimination Radar in 
the normal 5000 series and the Redesigned Kill Vehicle?
    Admiral Syring. Acquisition timelines for development programs vary 
considerably depending on the maturity of the components being 
developed and the amount of integration and testing required prior to 
deployment. It is difficult to specify the exact differences but MDA 
estimates development programs such as LRDR and RKV would take at least 
25 percent longer without the streamlined and tailored MDA acquisition 
processes.
    In the case of RKV, the formal OUSD(AT&L) gated reviews required by 
DOD 5000 series acquisition requirements are estimated to add 
approximately one year and $200M to the development effort and initial 
deployment costs. The RKV Acquisition Strategy signed by USD(AT&L) in 
October, 2015 accounts for streamlined acquisition processes.
    Mr. Rogers. I think you're aware of the planned radar modernization 
of the Patriot system, which will take as long as 12 years to provide 
an improved radar to our soldiers; how long would a comparable effort 
take MDA? I ask you to answer this using in your role as the technical 
integration authority for IAMD.
    Admiral Syring. Acquisition timelines for development programs vary 
considerably depending on the maturity of the components being 
developed and the amount of integration and testing required prior to 
deployment. It is difficult to predict acquisition schedules without a 
prior knowledge of these variables. For example, Long Range 
Discrimination Radar (LRDR) is developing and integrating relatively 
mature technology. The LRDR program plan for development and 
integration is less than five years from contract award to Initial 
Fielding.
    Mr. Rogers. Please provide a detailed explanation of changes to MDA 
AQ processes with respect to the 5000 series AQ regulations or JCIDS 
process in your tenure as Director.
    Admiral Syring. MDA's processes are completely consistent with the 
principles of DOD Directive 5000.01 and DOD Instruction 5000.02, but 
tailored to match Ballistic Missile Defense System (BMDS)-unique 
acquisition and requirements characteristics.
    The BMDS warfighter requirements generation is explicitly exempt 
from JCIDS (SecDef memorandum dated January 2, 2002). The BMDS 
requirements generation process is the USSTRATCOM-led Warfighter 
Involvement Process (WIP) (ref: STRATCOM Special Instruction 538-1). 
The WIP is focused on BMD and Integrated Air and Missile Defense.
    No significant changes were made to MDA's acquisition or 
requirements generation processes during my tenure; however several 
improvements and tailoring updates have been implemented the past 
several years to include:
    <bullet>  Incorporation of guidance from the recent Defense 
Acquisition of Services Instruction (DOD Instruction 5000.74, dated 
January 5, 2016) into MDA acquisition policy and processes.
    <bullet>  Validated that same streamlined processes outlined in the 
recent update to DOD Instruction 5000.02 (January 7, 2015) are 
incorporated in MDA processes. For example, the new DOD Instruction 
5000.02 describes several acquisition ``models'' or ``tracks'' that 
development programs may follow. Several of these tracks have been in 
MDA acquisition policy and process since 2009.
    <bullet>  STRATCOM increased frequency of updates to the 
Prioritized Capability List (annual vice biannual) to better 
synchronize with the POM cycle.
    <bullet>  Generation of a BMD Homeland Defense Capability Document 
(CD) which was endorsed by the Joint Requirements Oversight Council 
(JROC). The VCJCS-signed JROC Memorandum (October 28, 2014) 
acknowledged that MDA is not bound by JCIDS. This CD specifically 
addressed Long Range Discrimination Radar (LRDR) and redesigned kill 
vehicle capability. The CD will be periodically reviewed for update.
    <bullet>  Incorporation of LRDR program reporting in the Defense 
Acquisition Executive Summary (DAES) on-line reporting system. LRDR is 
a pilot program for BMDS reporting in DAES.
    Mr. Rogers. Please provide the full list of NDPC-approved BMDS 
information and sharing with Russia and China?
    Admiral Syring. The Missile Defense Agency (MDA) submitted three 
requests for Exception to United States National Disclosure Policy 
(ENDP) from 2007-2011 seeking authority to disclose classified 
information to the Russian Federation (RF) relating to three ballistic 
missile defense flight test events. In each case, authority granted by 
the NDPC was limited to oral and visual disclosure only under 
controlled conditions. The RF sent attendees to two of the three test 
events (in 2007 and 2010). No invitations were extended for the third 
event (in August 2011), and no disclosure occurred. MDA has not 
submitted any further requests for ENDP for the RF.
    MDA has not sought ENDP for release of any information to the 
People's Republic of China.
    Mr. Rogers. Is the Russian Federation, under current NDPC policy, 
permitted to receive any FOUO, ITAR, UCTI, SECRET or TOP SECRET 
information about any U.S. missile defense system? If your answer is 
other than ``no,'' please reply in detail.
    Admiral Syring. No. National Disclosure Policy Committee (NDPC) 
policy prohibits the release of classified information with a foreign 
government without an explicit authorization, such as an Exception to 
United States (U.S.) National Disclosure Policy (ENDP), and an 
information sharing agreement. No such agreement exists with the 
Russian Federation (RF).
    We are not aware of any policy permitting the release of any 
controlled unclassified information (such as FOUO) or classified 
information to the RF on any U.S. missile defense system. We defer 
further response to the Defense Technology Security Administration.
    Mr. Rogers. Is the People's Republic of China, under current NDPC 
policy, permitted to receive any FOUO, ITAR, UCTI, SECRET or TOP SECRET 
information about THAAD? Any U.S. missile defense system? If your 
answer is other than ``no,'' please reply in detail.
    Admiral Syring. No. National Disclosure Policy Committee (NDPC) 
policy prohibits the release of classified information with a foreign 
government without an explicit authorization, such as an Exception to 
United States (U.S.) National Disclosure Policy (ENDP), and an 
information sharing agreement. No such agreement exists with the 
People's Republic of China (PRC).
    We are not aware of any policy permitting the release of any 
controlled unclassified information (such as FOUO) or classified 
information to the PRC on THAAD or any other U.S. missile defense 
system. We defer further response to the Defense Technology Security 
Administration.
    Mr. Rogers. Do you support providing the People's Republic of China 
with any detailed technical information on THAAD, including classified 
information? Please reply in detail. Please ensure your response is 
unclassified to the maximum extent possible.
    Admiral Syring. We have not approved release of any controlled 
unclassified information (such as FOUO) or classified information to 
the Peoples Republic of China on THAAD or any other missile defense 
system.
    Mr. Rogers. Are you aware of MDA or MDA contractors being targeted 
or ``hacked'' by groups or entities linked to China or the Chinese 
military? Please reply in detail. Please ensure your response is 
unclassified to the maximum extent possible.
    Admiral Syring. If a loss, theft, or spillage of MDA Unclassified 
Controlled Technical Information (UCTI) occurs, the Missile Defense 
Agency (MDA) reviews whether the contractor was in compliance with the 
contract terms and conditions established for cybersecurity. If the 
review determines the contractor is non-compliant, they are assessed 
penalties based on the performance assessment tools defined by the 
contract. Penalties have ranged from award fee reductions to contract 
termination based on the severity of the incident. MDA has also 
utilized the Contractor Performance Assessment Reporting System (CPARS) 
to rate contractors who do not manage in accordance with their contract 
terms and conditions. CPARS is the Government-wide repository of 
contractor performance information. A CPAR, required at least annually 
during contract performance per Federal Acquisition Regulation (FAR) 
42.1502, provides an official record of both positive and negative 
contractor contract performance during a specific period of time. Past 
performance information (including the ratings and supporting 
narratives) is relevant information, for source selection purposes (FAR 
Part 15), regarding a contractor's actions under previously awarded 
contracts or orders.
    MDA is teaming with our industry partners to strengthen network 
protections and associated business practices to improve protection of 
UCTI. MDA is working with industry to implement multiple cyber-related 
efforts that will improve both the government and our industry partners 
safeguard Ballistic Missile Defense System information.
    Mr. Rogers. What are the capability gaps that could be filled by a 
space sensor layer for the BMDS? Please reply in detail. Please ensure 
your response is unclassified to the maximum extent possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Please identify the studies MDA has carried out on its 
own or with other agencies or entities on space-based missile defense 
sensors?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. What are the options MDA has studied or is studying to 
host a missile defense payload on a USG, allied, or commercial space 
vehicle?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Is it practical to expect MDA to develop and deploy a 
missile defense-only space-based sensor architecture?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Can you please describe for me why we see reductions in 
SM-3 procurement quantities in your budget request for fiscal year 
2017. Is this budgetary maneuver or is there something else this 
committee should be aware of?
    Admiral Syring. The Missile Defense Agency (MDA) PB16 input 
contained an SM-3 Block IB Multi-Year Procurement plan. The decision 
was made in PB17 to transition back to single year procurement as the 
Agency completed Third Stage Rocket Motor (TSRM) Engineering Change 
Proposal (ECP) verification and testing, and quantities were reduced to 
remain within the Department's overall funding limits. To address SM-3 
manufacturing quality to ensure readiness for continued procurement, a 
comprehensive quality, safety, and mission assurance assessment was 
recently conducted. This assessment supported continued production of 
SM-3s.
    In addition, PB16 included procurement of 8 SM-3 Block IIA guided 
missiles in FY17. Included in PB17 is a revised completion plan for SM-
3 Block IIA, and under this plan the 8 rounds planned for FY17 were 
deferred to FY18 to match development milestones. FY17 funds were 
realigned from Defense Wide Procurement to Research, Development, Test 
and Evaluation in support of remaining SM-3 Block IIA development to 
meet the European Phased Adaptive Approach Phase 3 timeline.
    Mr. Rogers. What liability does the contractor bear for quality 
control failures? Does that liability include costs of failed tests? 
How much do those cost the taxpayer?
    Admiral Syring. Specific liability is dependent on individual 
contract terms and conditions including incentive structure. Most BMDS 
testing is part of developmental tests conducted under cost plus-type 
contracting vehicles. Tests failed as a result of contractor 
performance or quality control issues reduce contractor award fee and/
or incentive fee and potentially impact Contractor Performance 
Assessment Report ratings. Additionally, MDA has delayed acceptance of 
Contractor-produced hardware due to known quality issues.
    Mr. Rogers. What is the current DOD regulation and policy 
concerning MDA's role to develop and maintain BMD capability and its 
transfer to the military services? Please detail what systems have been 
transitioned to the military services and what systems are currently 
undergoing transition study with the military services.
    Admiral Syring. The Department is using the Deputy Secretary of 
Defense's September 25, 2008, Ballistic Missile Defense System (BMDS) 
Life Cycle Management Process (LCMP), and June 10, 2011 memorandum on 
``Funding Responsibilities for BMDS Elements'' to guide program 
planning and the transfer process.
    Under the BMDS LCMP, DOD continues to transition BMDS capabilities 
to the lead Military Departments. The lead Military Departments are 
responsible for doctrine, organization, training, leadership, 
education, personnel and facilities associated with those elements. MDA 
retains the materiel acquisition responsibilities, unless a decision is 
made to transfer all responsibilities (full Title 10 Transfer) to the 
Military Department.
    Figure 1 lists the fielded BMDS elements, lead Military Departments 
and the dates elements entered the transition phase. The Department 
uses the following terms and definitions to clarify the process, roles 
and responsibilities:

          Entered Transition Phase: The BMDS element normally enters 
        the transition phase when the Deputy Secretary of Defense, or 
        delegated authority, designates a lead Military Department. If 
        not previously approved, entry into the transition phase is 
        coincident with the completion of the lead Military Department-
        MDA overarching memorandum of agreement (MOA).

          Capability Transfer: The BMDS element capability is 
        transferred to the lead Military Department once the Military 
        Department accepts operational responsibility. After the 
        capability transfer, the Military Department and MDA will 
        assume responsibilities as agreed in the Military Department-
        MDA overarching MOA and respective element annexes. Normally, 
        MDA will retain materiel responsibilities, including Research, 
        Development, Test and Evaluation, production, and sustainment 
        of BMD specific equipment. The lead Military Department 
        normally assumes responsibility for military pay and 
        allowances, base operations and operations, and sustainment of 
        common support equipment.

          Title 10 Transfer to Lead Service: BMDS element 
        responsibilities are transferred from MDA to the lead Military 
        Department. Unless otherwise specified, the lead Military 
        Department assumes all doctrine, organization, training, 
        materiel, leadership and education, personnel, and facilities 
        responsibilities. The Deputy Secretary of Defense, or a 
        delegated authority, approves the transfer.


                 Figure 1: BMDS Element Transition and Capability Transfer Status, October 2016
----------------------------------------------------------------------------------------------------------------
                                                     Entered Transition                        Title 10 Transfer
        Element or Capability         Lead Service         Phase         Capability Transfer    to Lead Service
----------------------------------------------------------------------------------------------------------------
Patriot Advanced Capability-3 (PAC    Army          N/A                  N/A                  February 2003 \1\
 3)
----------------------------------------------------------------------------------------------------------------
AN/TPY-2 (Forward Based Mode)         Army          February 2006        October 2013         Study ongoing \2\
----------------------------------------------------------------------------------------------------------------
Terminal High Altitude Area Defense   Army          November 2006        October 2014         Study ongoing \2\
 (THAAD)
----------------------------------------------------------------------------------------------------------------
Ground Based Mid-Course Defense       Army          November 2006        N/A \3\              Not planned \3\
 (GMD)
----------------------------------------------------------------------------------------------------------------
Standard Missile-3 (SM-3)             Navy          November 2006        October 2008         Not planned
----------------------------------------------------------------------------------------------------------------
Aegis BMD 3.6.X                       Navy          November 2006        October 2008         Not planned
----------------------------------------------------------------------------------------------------------------
Aegis BMD 4.0.X                       Navy          March 2007           March 2012           Not planned
----------------------------------------------------------------------------------------------------------------
Aegis BMD 5.0 (Capability Upgrade)    Navy          January 2008         December 2015        Not planned \4\
----------------------------------------------------------------------------------------------------------------
Aegis BMD 5.1                         Navy          January 2008         FY 18                Not Planned \4\
----------------------------------------------------------------------------------------------------------------
Aegis Ashore (Romania)                Navy          January 2010         December 2015        Not planned
----------------------------------------------------------------------------------------------------------------
Sea Based X-Band Radar (SBX)          Navy          December 2008        December 2011        Not planned
----------------------------------------------------------------------------------------------------------------
Cobra Dane                            Air Force     February 2006        February 2009        N/A \5\
----------------------------------------------------------------------------------------------------------------
Upgraded Early Warning Radars (UEWR)  Air Force     November 2006        September 2008       N/A \5\
----------------------------------------------------------------------------------------------------------------
Command and Control, Battle           N/A \6\       N/A                  N/A                  N/A \6\
 Management and Communications
 (C2BMC)
----------------------------------------------------------------------------------------------------------------

    Notes:
    \1\ PAC 3 was already fielded by the Army when MDA was established 
in 2002 and was immediately transferred back to the Army by mutual 
agreement.
    \2\ Army and MDA have completed a study on the merits of a Title 10 
Transfer. DOD is reviewing the study results.
    \3\ The GMD will not be transferred in the foreseeable future. Army 
and MDA will coordinate on terms of transition and transfer when the 
program is technically mature.
    \4\ BMD 5.0CU and 5.1 software packages are integrated into Navy's 
Aegis Baseline 9 combat system suite. MDA retains materiel developer 
responsibilities for the BMD software.
    \5\ Not applicable. Cobra Dane and the Upgraded Early Warning 
Radars are previously fielded U.S. Air Force assets that were upgraded 
and adapted by MDA for use with the BMDS. A Title 10 transfer is 
therefore, unnecessary,
    \6\ The C2BMC Tri-Service Structure was approved by the Deputy 
Secretary of Defense in March 2014.

    Mr. Rogers. Virtually every part of DOD has been the subject of 
cyber attacks, whether for espionage or other purposes. Is MDA any 
different? Can you describe what you've done to keep MDA ahead of this 
threat? Please reply in detail. Please ensure your response is 
unclassified to the maximum extent possible.
    Admiral Syring. The Missile Defense Agency (MDA) has been targeted 
for cyber-attack like the rest of DOD; however, MDA has successfully 
defended or mitigated cyber threats against our internal government 
networks and systems. Similar to other DOD programs, persistent cyber 
threats directed against defense industry base operated or owned 
unclassified networks are a continual vulnerability. MDA is very 
cognizant of the growing cyber threat and is aggressively working to 
ensure the Ballistic Missile Defense System (BMDS) information is 
protected, and that missile defenses can operate in a highly contested 
cyber environment. To keep MDA ahead of the threat, we have implemented 
a rigorous cybersecurity program as described below.
    MDA is using and sharing cyber intelligence to reduce our 
vulnerabilities. We use cyber intelligence to tune our cyber defenses 
and focus our information protection efforts. These efforts are 
accomplished in concert with DOD cyber forces (especially U.S. 
Strategic Command's USCYBERCOM), intelligence community assets, and law 
enforcement authorities.
    MDA is improving the cyber hygiene of our missile defense 
capabilities by ensuring our cybersecurity infrastructure has the 
latest security upgrades and patches. MDA continually assesses our 
systems, suppliers, and overall acquisition processes. We are ensuring 
robust and secure configurations of our critical software and hardware 
to reduce the risk of malicious activities. MDA also has a rigorous 
cyber and Supply Chain Risk Management inspection program to examine 
everything about our systems from the trusted supply chain to the 
fielded capability. This ensures the highest possible levels of 
compliance.
    MDA is instituting the DOD Cybersecurity Discipline Implementation 
Plan to mitigate risks for the information systems we own and manage. 
MDA's program implements the DOD four Lines of Effort campaign: Strong 
Authentication (to degrade the adversaries' ability to maneuver on DOD 
information networks); Device Hardening (to reduce internal and 
external attack vectors into DOD information networks); Reducing the 
Attack Surface (to reduce external attack vectors into MDA information 
networks); and Alignment to Cybersecurity/Computer Network Defense 
Services (to improve detection of and response to adversary activity). 
These efforts run across all facets of MDA and the BMDS mission systems 
and general services infrastructures.
    MDA has established an Insider Threat Program in accordance with 
the DOD Directive 205.16, ``The DOD Insider Threat Program.'' MDA is 
leveraging computer network defense capabilities, in addition to other 
information streams, to proactively detect, mitigate, and defeat 
potential insider threats. This program also ensures that only trusted 
individuals have access to MDA program information and systems.
    The MDA Computer Emergency Response Team (CERT) continues to 
provide Computer Network Defense (CND) services as an accredited Tier 
II CND Service Provider to MDA Programs of Record. The MDA CERT 
executes a battle rhythm that includes daily monitoring and 
collaboration with USCYBERCOM, Joint Force Headquarters-Department of 
Defense Information Networks (JFHQ-DODIN), and other sources for the 
latest threats to DOD and MDA. As a result MDA CERT tracked and managed 
109 cyber taskings in fiscal year 2015 and approximately 77 cyber 
taskings to date in fiscal year 2016, contributing to the overall 
cybersecurity posture of MDA networks and resources.
    MDA is incorporating cybersecurity requirements early into our 
acquisition lifecycle. We are designing and building cybersecurity into 
missile defenses, rather than adding it after the fact. MDA is ensuring 
that we build cyber resilience into our systems and verifying 
cybersecurity protection of deployed systems through realistic 
cybersecurity testing.
    We are working closely with our industry partners in the Defense 
Industry Base (DIB) to ensure they can protect both classified and 
unclassified information stored on their systems to prevent exposure to 
potential adversaries. MDA knows that malicious cyber actors are 
constantly attempting to exfiltrate information from U.S. Industry. We 
will continue to work with our DIB partners, the FBI, and other 
associates, to identify these issues and reduce the chances of success 
for those responsible, in coordination with U.S. National Authorities 
and in accordance with U.S. National Policy.
    MDA continues to execute a rigorous cybersecurity controls 
validation testing program on MDA networks and the BMDS in compliance 
with the National Institute of Standards and Technology (NIST) Special 
Publication 800-53, Revision 4, ``Security and Privacy Controls for 
Federal Information Systems and Organizations.'' We recently 
established a mandatory baseline set of technical cybersecurity 
controls for implementation within the BMDS system specification.
    Moreover, MDA is supporting BMD Warfighters with the joint 
development of the Cyber BMD Concept of Operations (with Joint 
Functional Component Command-Integrated Missile Defense and Joint 
Functional Component Command-Space) to ensure cyber threats can be 
rapidly detected, contained, and defeated. These efforts ensure the 
Agency remains a strong mission partner, protects and defends MDA 
information systems and networks, and optimizes cybersecurity 
management and processes at a level commensurate with our critical 
national defense mission.
    Mr. Rogers. What consequences have there been for contractor 
responsibility for such data loss/theft/spillage?
    Admiral Syring. Available tools to address Contractor liability 
include reducing award and incentive fee, negative Contractor 
Performance Assessment Report ratings, decision to not exercise 
contract options, and potential debarment from receiving Government 
contracts. MDA has used these tools recently to hold Contractors 
responsible for data lost/theft/spillage. MDA mandates the inclusion of 
Defense Federal Acquisition Regulations Supplement clause 252.204-7012 
(Safeguarding of Unclassified Controlled Technical Information) in 
existing and future contracts and other MDA-specific requirements
    Mr. Rogers. How concerned are you that it is too easy for the bad 
guys to get access to ``unclassified controlled technical information'' 
about our missile defense systems? Have you seen examples of where they 
have improved their systems thanks to this sort of U.S. data? If yes, 
including if based on your suspicion, please provide as much detailed 
information as possible concerning such examples.
    Admiral Syring. We are very concerned about protecting Unclassified 
Controlled Technical Information (UCTI). The Missile Defense Agency 
(MDA) is working to ensure our Critical Covered Defense information is 
appropriately protected and working Defense contractor supply chain to 
implement oversight of defense contractor unclassified and development, 
manufacturing, and administrative networks.
    The Department issued a new Defense Federal Acquisition Regulation 
Supplement clause in August 2015 to protect UCTI, which MDA is 
incorporating into every new contract we award.
    We have held an MDA Industry Day to discuss protection of UCTI and 
appropriate program protection and cybersecurity controls. MDA has 
formed an alliance with our key prime contractors and government 
partners to assess both technical and non-technical protection 
countermeasures that can be implemented to reduce the risk of 
information loss and to help mitigate the risks of potential for cyber 
exploitation.
    A key part of this effort is the requirement to implement the 
National Institute of Standards and Technology Special Publication 800-
71 security requirements by December 2017 and to implement appropriate 
supply chain risk management countermeasures throughout our Defense 
Industrial Base. These efforts should assist in providing enhanced 
protection measures that are both cost-effective and reduce the risk of 
critical information loss. MDA is leading an effort with our primes and 
sub-contractors to identify where MDA specific covered defense 
information (CDI) has the greatest protection risk and ensuring 
additional security protection measures are implemented where 
appropriate to provide better protection for both MDA and our industry 
partners' critical information.
    MDA defers to the Intelligence Community on how other countries 
improve their systems.
    Mr. Rogers. In a response to a request for information, MDA 
indicated that planned Patriot-THAAD integration will consist of being 
able to pass planning data between units via compact disc. It is 
understandable that the document describes this as ``very limited THAAD 
integration with IBCS''. Is that correct? Is that acceptable? Does this 
demonstrate the Chairman of the Joint Chief's vision of integrated air 
and missile defense?
    Admiral Syring. MDA's response was accurate in that THAAD battle 
plans are currently passed via compact discs to Army units. The 
capability MDA and the Army are building for future increments does not 
use CDs. The Army and MDA have jointly developed an initial integration 
plan to provide shared defense design/battle planning and situational 
awareness improvements by 2020.
    The first integration step includes modification of THAAD software; 
adding the Common Integrated Air and Missile Defense (IAMD) XML Schema 
(CIXS) 3.6 interface to the THAAD Portable Planner; modification of the 
IBCS Integrated Defense Design algorithms and user interface; and 
remoting of THAAD workstations into a collocated IBCS Engagement 
Operations Center functioning as the THAAD Battery command post.
    Subsequent integration steps will be defined as part of the 
requirements analysis in conjunction with the development of the Army 
IAMD System of Systems Increment 3 Capabilities Production Document in 
2018. This plan supports the Chairman of the Joint Chief's vision of 
integrated air and missile defense.
    Mr. Rogers. I understand the United Arab Emirates has indicated its 
willingness to make a considerable investment in development of an 
evolved extended-range THAAD system. Can you afford an extended-range 
THAAD given your current budget profile?
    Admiral Syring. The Department recently received a letter from the 
United Arab Emirates (UAE) expressing interest in the Terminal High 
Altitude Area Defense (THAAD) Extended Range (ER) concept. In response, 
the Department clarified that while THAAD ER is not currently a program 
of record, the Missile Defense Agency (MDA) is conducting a THAAD 
follow-on study to assess alternative future capabilities to further 
enhance the THAAD weapon system against current and future threats. The 
Department committed to continue to keep the UAE informed through 
ongoing dialogue. MDA is assessing affordability as part of the THAAD 
follow-on study.
    Mr. Rogers. Is it the case the Army Vice Chief of Staff and 
STRATCOM have both stated that they need such a capability (e.g., an 
evolved extended-range THAAD system)? What capability gaps have they 
identified to MDA? Please reply in detail. Please ensure your response 
is unclassified to the maximum extent possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Do you support such a partnership between the UAE and 
the U.S. (e.g., to develop an evolved extended-range THAAD system)?
    Admiral Syring. The United Arab Emirates is an important partner in 
ballistic missile defense and leader in the region as the first country 
to purchase THAAD batteries and interceptors through the Foreign 
Military Sales program. While the Department of Defense is not 
currently pursuing THAAD ER as a program of record, we are conducting a 
THAAD follow-on study to assess alternative future capabilities to 
further enhance the THAAD weapon system. As the Department evaluates 
findings from the THAAD follow-on study, we have committed to keeping 
the UAE informed and ensure that dialogue remains open.
    Mr. Rogers. I understand the U.S. is discussing a Foreign Military 
Sales case with Qatar for THAAD. Why is this case important for Qatar 
and THAAD? Can we work together to accelerate this case to make sure 
Qatar has these critical missile defense systems prior to the World Cup 
in 2022? How?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Recently, Bill Gertz of the Washington Free Beacon has 
reported that North Korea has displayed a new road-mobile ICBM. Does 
North Korea have a new road-mobile ICBM? Is it testing solid-rocket 
motors for such a missile? Please reply in detail. Please ensure your 
response is unclassified to the maximum extent possible.
    Admiral Syring. The Missile Defense Agency defers to the Department 
of Defense Intelligence Community.
    Mr. Rogers. Can you remind this committee why road-mobile missiles 
are a defense challenge for us? And what about such missiles with solid 
fuel?
    Admiral Syring. Mobile ballistic missile technology advances and 
associated proliferation poses a growing threat to United States, our 
allies, and partner forces and territory including the homeland. Road 
mobile launchers enable potential adversaries to launch missiles from 
unexpected locations. Solid fuel provides more flexibility to the 
threats we face by reducing the time required to prepare and launch 
these missiles
    Mr. Rogers. Am I correct that under the current plan for the 
ground-based midcourse defense system, there are no operational spares 
GBIs for, is it 5 or 6 years? It's well into the 2020s, right? What 
happens if there is an unplanned failure? Please reply in detail. 
Please ensure your response is unclassified to the maximum extent 
possible.
    Admiral Syring. The Missile Defense Agency (MDA) will not have 
operational spare Ground Based Interceptors (GBIs) until 2020. In 
President's Budget 2017, MDA plans to deliver three initial production 
Redesigned Kill Vehicle (RKV) units in fiscal year 2020 (FY20) and two 
initial production Configuration 3 (C3) boost vehicles in FY23. One of 
the RKVs and one of the C3 boosters will be designated as an 
operations/test spare.
    In the event of an unplanned failure for one of the operational 
GBIs, Ground-based Midcourse Defense Program Manager for Readiness 
would task the GBI contractor to repair the interceptor. During the 
timeframe for the repair, the warfighter would lose one interceptor 
from inventory.
    Mr. Rogers. Is this reality (the lack of operational spares 
referenced in the previous question) an artifact of years of under-
investment in the GMD system? What is the best way to mitigate this 
risk?
    Admiral Syring. The lack of operational spares is due to 
significantly increasing the amount of operational Ground-based 
Interceptors (GBIs). To achieve the SECDEF mandate of fielding 44 GBIs 
by the end of calendar year 2017, MDA is emplacing all previously 
planned spares in the operational fleet. The following table 
illustrates the current program plan and the utilization of GBIs to 
meet operational and test requirements.

----------------------------------------------------------------------------------------------------------------
 Total Legacy contract (-0001) Deliveries             47
----------------------------------------------------------------------------------------------------------------
Total Development and Sustainment Contract  11                     .............................................
 (DSC) Deliveries
----------------------------------------------------------------------------------------------------------------
             Total Deliveries               58                     .............................................
----------------------------------------------------------------------------------------------------------------
Subtract Flight Tests and Stockpile         (12)                   FTG-06, BVT-01, FTG-06a, CTV-01, CTV-02+, FTG-
 Reliability Program (SRP)                                          07, FTG-06b, FTG-11a, FTG-11b, SRP (2), FTG-
                                                                    15
----------------------------------------------------------------------------------------------------------------
             Total Available                46                     .............................................
----------------------------------------------------------------------------------------------------------------
Emplace 30                                  .....................          (Original GM Plan)
----------------------------------------------------------------------------------------------------------------
IF: 30 are emplaced;                        THEN: Subtract 30      RESULT: 16 GBIs available to support future
                                             from 46 total          Flight Tests, Spares and SRP. Provides 10
                                             available; 46-30=16    Flight Test assets for fiscal year 2020
                                                                    (FY20) through FY28 and 6 for Spares and SRP
----------------------------------------------------------------------------------------------------------------
Emplace 44                                  .....................      (March 2013 SECDEF Mandate)
----------------------------------------------------------------------------------------------------------------
IF: 44 are emplaced;                        THEN: Subtract 44      RESULT: 2 GBIs are available to support
                                             from 46 total          flight tests in FY20 and FY21
                                             available; 46-44=2
----------------------------------------------------------------------------------------------------------------


    Our President's Budget 2017 plan mitigates this risk by providing 
redesigned kill vehicle spares beginning in FY20 and Configuration 3 
spares in FY23.
    Mr. Rogers. Please detail any exercises, table top exercises, or 
war games you have participated in concerning left-of-launch ballistic 
missile defeat. In such exercises, were there any areas in which it was 
observed that policy guidance was required to successfully carry out 
such capability? If so, please identify and describe such observed 
areas needing policy guidance from OSD.
    Admiral Syring. The Missile Defense Agency's (MDA's) wargame and 
exercise support is primarily limited to providing modeling and 
simulation focusing on right-of-launch ballistic missile defeat for 
Warfighter-sponsored wargames and exercises.
    MDA defers to the respective combatant commands for specific 
details or questions regarding policy guidance observations or 
requirements for executing Left-of-Launch activities.
    Mr. Rogers. What kind of intelligence do we need to possess in 
order for the President to order a preemptive attack on a state 
possessing nuclear weapons?
    Admiral Syring. This question would be best addressed by the U.S. 
Strategic Command.
    Mr. Rogers. What do potential adversaries like Russia, China, Iran 
and other states know about THAAD and PATRIOT? Do they know more than 
they should? What does that tell us about the security of data about 
U.S. missile defense? Please reply in detail. Please ensure your 
response is unclassified to the maximum extent possible.
    Admiral Syring. The Missile Defense Agency defers to the Department 
of Defense Intelligence Community.
    Mr. Rogers. How much do the TD-2 and KN-08 have in common, in terms 
of technology and systems? How much of the KN-08 is it safe to say has 
been tested? Please reply in detail. Please ensure your response is 
unclassified to the maximum extent possible
    Admiral Syring. The Missile Defense Agency defers to the Department 
of Defense Intelligence Community.
    Mr. Rogers. Are we outpacing the threat? How do you evaluate 
``outpacing'' the threat? Based on what criteria? Please provide a 
detailed list of adversary developments regarding ballistic missile 
capability that affected our ability to ``outpace'' the threat. What 
developments by adversaries, if any, have surprised you? Please reply 
in detail. Please ensure your response is unclassified to the maximum 
extent possible.
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. How much control do you have over LCMD? How much 
insight do you have over something that will go into a system for which 
you are responsible?
    Admiral Syring. Since 2015, the Missile Defense Agency has provided 
technical support to the Office of the Secretary of Defense/Sandia 
National Laboratory Low Cost Missile Defeat team, to include systems 
engineering, Terminal High-Altitude Area Defense system design, 
sensors, and cost estimating. We have also provided technical deep 
dives and guidance on the Ballistic Missile Defense System 
architecture, system requirements, concept of operations, safety and 
mission assurance, and integration information. We will continue to 
provide technical support through 2016 in support of a Systems 
Requirements Review in July and activities leading to a Preliminary 
Design Review. We participate in all of the major reviews and weekly 
tag up meetings.
    Mr. Rogers. Are there any other missile defense capabilities you 
are aware of that are being developed outside of MDA? For example, by 
the Strategic Capabilities Office? What is your level of insight and 
technical authority over such capability developments.
    Admiral Syring. The Missile Defense Agency (MDA) is an active team 
member of the Hypervelocity Gun Weapon System (HGWS) Project sponsored 
by the Office of Secretary of Defense Strategic Capabilities Office 
(SCO). MDA supports the HGWS systems engineering efforts and is 
developing a Prototype Fire Control Radar to support system level 
demonstrations in the fiscal year 2018-2019 time frame. MDA actively 
participates in Integrated Air and Missile Defense architecture and 
requirements development, ballistic missile defense mission performance 
analysis, and HGWS system-level test planning, as well as 3-Star-level 
Sensor Steering Committee meetings.
    In addition, MDA is partnering with SCO on other projects at higher 
classification levels.
    Mr. Rogers. I would like to give you an opportunity to clarify a 
response to a question during the 14 April hearing, are you funded to 
develop and deploy defense against boost-glide missiles like those 
being developed by Russia and China? How much would such development 
cost?
    Admiral Syring. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Am I correct that, if we assume a 2028 initial fielding 
of a new Patriot radar, we will have a radar system with components, in 
some cases, that are 58 years old?
    Mr. Pike. The average age of all Patriot ground equipment including 
the radars and their components across the U.S. Army fleet is 7.5 
years. This average age is achieved through the Patriot 
recapitalization program and the Patriot modification efforts and is 
cost-effectively enabled by new radar production for foreign partners 
and continuous obsolescence management. The Patriot recapitalization 
program is a complete depot overhaul effort that returns one battalion 
set of Patriot ground system equipment per year (including radars) to 
like-new (zero miles/zero hours) condition. The recapitalization 
program is conducted at the Letterkenny Army Depot in Pennsylvania and 
is funded with Operations and Maintenance Army funding. While the 
original design heritage of Patriot goes back to the 1970s, the Army 
has implemented a continuous and robust hardware and software 
modification effort over the years to address performance, readiness, 
and obsolescence. These modification efforts not only replace older 
components, but also leverage the substantial investment of our foreign 
partners and most recently included the new Radar Digital Processor, 
new Modern Adjunct Processor, and the new Modern Man Station. These 
components also enable adaptation to the Army's Integrated Air and 
Missile Defense Battle Command System (IBCS).
    The materiel solution for the Lower Tier Air and Missile Defense 
Sensor (LTAMDS) has not been determined nor has a program baseline 
(cost, schedule, performance) been established. The LTAMDS effort could 
result in an upgrade to the current Patriot radar or a new radar to 
replace the Patriot radar. The Army's plan is to conduct a full and 
open competition to allow industry to propose and demonstrate materiel 
solutions that address the approved LTAMDS requirements. While LTAMDS 
is being developed and fielded, Patriot readiness and performance will 
be maintained through the recapitalization, modification, and 
obsolescence management efforts described above.
    Mr. Rogers. How many requirements or objectives can Patriot not 
meet today due to obsolescence or adversary threat developments? Please 
provide me the complete list. Please reply in detail. Please ensure 
your response is unclassified to the maximum extent possible.
    Mr. Pike. [The information referred to is classified and retained 
in the committee files.]
    Mr. Rogers. When you testified, you stated the Army Requirements 
Oversight Council was meeting that week to establish an actual 
operational requirement for the LTAMD radar. Did it? Please provide 
such AROC-approved requirement if so.
    Mr. Pike. [The information referred to is classified and retained 
in the committee files.]
    Mr. Rogers. Please provide the operational availability information 
for each Patriot battery for the most recent year for which it is 
available. Please reply in detail. Please ensure your response is 
unclassified to the maximum extent possible.
    Mr. Pike. Over the last twelve months, Operational Readiness was 
the driver of availability of Patriot units. Operational Readiness is 
reported monthly for the worldwide U.S. Army Patriot fleet and is also 
broken out by the following regions: Korea, Pacific Command (PACOM), 
Continental United States (CONUS), Europe (USAREUR), and Southwest Asia 
(SWA).
    The Army's Operational Readiness goal for Patriot is 90 percent. 
The most current Operational Readiness data available for the last 
twelve months is provided below ending May 2016:

        Worldwide  92.67%
        Korea  97.75%
        PACOM  79.83% <dagger>
---------------------------------------------------------------------------
    <dagger> PACOM failures were in radar, heavy and medium wheeled 
vehicles, and trailers. There were three separate months that affected 
the PACOM Operational Readiness rate. Radar faults occurred in August 
2015 and were corrected by the end of the month. Issues with vehicles 
occurred in October 2015 and were corrected by the end of that month. 
Radar faults and trailer issues occurred in APR 2016 and were corrected 
later that same month. The most recent month's (May 2016) Operational 
Readiness rate for PACOM was reported as 96 percent.
---------------------------------------------------------------------------
        CONUS  93.42%
        USAREUR  91.17%
        SWA  93.25%

    Mr. Rogers. What is the risk that, due to obsolescence, the Army 
will not be able to keep the Patriot radar fully functional to your 
planned 2028 initial fielding plan? Please explain your answer in 
detail and cite Army analysis/analyses that has been conducted to 
inform your answer. Please reply in detail. Please ensure your response 
is unclassified to the maximum extent possible.
    Mr. Pike. Due to the recapitalization program, the modification 
efforts, and continuous monitoring as well as the extensive new 
production for our foreign partners, the Army categorizes the risk to 
Patriot radar functionality (performance and operational readiness) as 
low.
    The Army continuously monitors component obsolescence in all 
Patriot end items. Commercially-available databases are utilized to 
assess the availability of electronic components used in the 
manufacture, modification, and recapitalization of the radar. The 
modification efforts to maintain performance and readiness against the 
evolving threat (functionality) produce the latest configuration of the 
Patriot ground system (including radars) for the U.S. Army fleet called 
Configuration 3+ (C3+). The C3+ modification effort results in a 49.3 
percent reduction in obsolete parts associated with the Patriot radar 
compared to the previous radar configuration. The overall obsolescence 
percentage of the C3+ radar is assessed at 4.3 percent of the total 
radar parts. The Army also monitors field failure data to ensure that 
spare and repair programs are not affected by obsolescence issues.
    Although the U.S. Army does not currently plan to procure any new 
Patriot radars, there is an extensive C3+ production program for our 
foreign partners. The new production enables a cost-effective supply 
chain to support performance, readiness, and sustainment of the U.S. 
Army capability, resolves certain obsolescence issues, and provides 
opportunity to reduce obsolescence even further.
    Mr. Rogers. Can you please tell me, if you begin fielding the new 
radar in 2028, when will it be fully deployed to our Army air 
defenders?
    Mr. Pike. The Lower Tier Air and Missile Defense Sensor effort has 
not yet been established/approved as an acquisition program. Therefore, 
the program baseline (cost, schedule, performance) has not yet been 
established. The program baseline will be informed by results of the 
full and open competition using the Army's approved operational 
requirements.
    Mr. Rogers. As the acquisition lead for the Army for Patriot, can 
you please assure us that at the end of the Lower Tier Army Missile 
Defense radar modernization program that all, all, capability and 
objective requirements gaps will be closed so that they are covered for 
our soldiers and joint warfighters who depend upon this system? If not, 
what capability and requirement gaps will not be met? Please reply in 
detail. Please ensure your response is unclassified to the maximum 
extent possible.
    Mr. Pike. The Army's approved operational requirement for the Lower 
Tier Air and Missile Defense Sensor (LTAMDS) addresses all of the known 
capability gaps based on current threat projections for future years. 
The LTAMDS program will be structured to achieve the Army's operational 
requirements which will close the gaps. However, threat projections are 
simply that--today's predictions of the future threat which may or may 
not accurately reflect the threat in the future. Threat projections and 
capability gaps are updated on a recurring basis. As the threat 
evolves, additional capability gaps and objective requirements may be 
identified during development, production, fielding, and/or sustainment 
of LTAMDS. Any necessary improvements to address the updated threat 
projections/emergent gaps will likely be implemented through 
evolutionary software development and hardware modifications (or 
product improvement programs) if required based on operational risk 
assessments. This is the same process that has been successfully 
accomplished in Patriot for decades.
    Mr. Rogers. In a response to a request for information, MDA 
indicated that planned Patriot-THAAD integration will consist of being 
able to pass planning data between units via compact disc. It is 
understandable that the document describes this as ``very limited THAAD 
integration with IBCS''. Is that correct? Is that acceptable? Does this 
demonstrate the Chairman of the Joint Chief's vision of integrated air 
and missile defense?
    Mr. Pike. Planned Patriot-THAAD integration does not consist of 
passing planning data between units via compact disc. Missile Defense 
Agency's (MDA) response was accurate in that THAAD battle plans are 
currently passed via compact discs to Army units for non-real time 
planning purposes. Near real-time target data and engagement status is 
currently shared between THAAD and Army mission command elements 
automatically via tactical data links. Additionally, the Army and MDA 
are building capabilities for future increments of non-real time battle 
planning that eliminates the need for compact discs. The Army and the 
MDA have jointly developed an initial integration plan to provide 
shared defense design/battle planning and situational awareness 
improvements by 2020. The work includes modification of THAAD software; 
adding the Common IAMD Extensible Markup Language Schema 3.6 interface 
to the THAAD Portable Planner; modification of the IBCS Integrated 
Defense Design algorithms and user interface; and remoting of THAAD 
workstations into a collocated IBCS Engagement Operations Center 
functioning as the THAAD battery command post. Subsequent integration 
steps will be defined as part of the requirements analysis in 
conjunction with the development of the Army IAMD System of Systems 
Increment 3 Capabilities Production Document in 2018. This plan 
supports the Chairman of the Joint Chief's vision of integrated air and 
missile defense.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Please give us your views on the efforts to change the 
decades-long missile defense policy of defending against a limited 
missile defense attack. Would expanding this policy to defense against 
all missile defense attacks, including large-scale attacks from China 
or Russia, be possible and cost-effective? What would the strategic 
stability implications be of such a change in policy? Is there an 
operational requirement for this? How do we deter Russian and Chinese 
attacks?
    Mr. McKeon. It has been long-standing U.S. policy not to seek to 
build missile defense capabilities that could threaten China's or 
Russia's strategic deterrent. Every U.S. Administration has instead 
relied on our nuclear Triad to ensure credible deterrence against 
Chinese and Russian Intercontinental Ballistic Missile (ICBM) attack 
against our homeland. Changing this policy would raise profound 
questions about whether the United States is now pursuing the 
development and deployment of large-scale, advanced missile defense 
capabilities to negate either Russia's or China's strategic deterrent. 
This development could undermine strategic stability with regard to 
both countries, and could lead them to respond by accelerating and 
expanding their strategic nuclear forces, or by developing a more 
advanced asymmetrical response capability.
    Furthermore, the technical challenges and interceptor inventories 
associated with building missile defenses to cope with a large-scale, 
sophisticated Russian or Chinese missile attack would make the project 
cost-prohibitive.
    DOD continues to believe that the most effective and reliable means 
to deter an attack on the United States by a major nuclear power is to 
sustain and modernize our strategic nuclear Triad.
    Mr. Cooper. Admiral Syring, you noted that Space Based Interceptors 
are neither technically nor financially feasible. Please explain these 
feasibility concerns.
    Admiral Syring. At a conceptual level, Space Based Interceptors 
(SBI) could provide on-demand boost and early post-boost access against 
certain classes of threats even in places where terrestrial weapons 
would be geographically constrained or politically precluded. However, 
the basic feasibility of an SBI layer with operational utility has not 
yet been shown in the relevant environment of space and on the 
compressed engagement timelines required.\1\ Essential SBI technologies 
have been worked only sporadically over the years and consequently are 
not feasible to procure, deploy, or operate in the near- to mid-term.
---------------------------------------------------------------------------
    \1\ Note: Delta 180 (Vector Sum) did demonstrate in 1986 the 
principle of intercepting in space a target during powered flight
---------------------------------------------------------------------------
    Cost has traditionally been a barrier to space based defenses. 
Feasible solutions would depend upon aggressive incorporation of light-
weight technologies, low-cost access to orbit, and selection of a 
mission that is bounded enough to be affordable and at the same time 
militarily useful. The 2011 IDA report showed costs ranging from $26B 
for a limited mission, to greater than $60B for a ``medium'' capability 
system that could perform against near-term threats, to over $200B for 
a full global defense.
    Mr. Cooper. Please give us your views on the efforts to change the 
decades-long missile defense policy of defending against a limited 
missile defense attack. Would expanding this policy to defense against 
all missile defense attacks, including large-scale attacks from China 
or Russia, be possible and cost-effective? Is it technologically 
feasible? What would the cost be?
    Admiral Syring. The Office of the Secretary of Defense for Policy 
is the most appropriate organization to respond to questions concerning 
a change in missile defense policy.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. We understand that the Department of Defense is 
considering deploying JLENS in the Mid-Atlantic region. Would Wallops 
Island, Virginia, be a suitable location to deploy JLENS in support of 
NORTHCOM/NORAD missions?
    Admiral Gortney. A number of sites were considered when planning 
for the three-year JLENS Operational Exercise (OPEX) from FY15 through 
FY17. Wallops Island was one of the sites considered; however, due to a 
number of variables, including current availability of restricted 
airspace and the timeframe required to develop new restricted airspace, 
Wallops Island was not deemed suitable to support the OPEX in the given 
timeframe. The objective of the JLENS OPEX was to assess JLENS 
contribution to cruise missile defense within the National Capital 
Region and inform an enduring mission decision. If the OPEX results had 
supported an enduring mission requirement, an assessment of optimal 
JLENS locations, including additional site surveys if necessary, would 
be part of the JLENS enduring mission decision.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. It is my understanding that you are on schedule to 
ensure that 44 Ground Based Interceptors (GBI) are fielded by the end 
of 2017. Can you describe for the committee how many back-up boosters 
and kill vehicles MDA plans to acquire to support the 44 GBI fleet?
    Admiral Syring. The Missile Defense Agency is on track to field 44 
GBIs by the end of 2017. The Agency plans to acquire three spare 
redesigned kill vehicles and two spare Configuration 3 boosters from 
calendar years 2020-2025 to support the 44 GBI fleet.
    Mr. Bishop. Do you believe that you are on schedule to ensure that 
the upgraded booster, known as C3, will be able to support the new 
Redesigned Kill Vehicle (RKV) fielding in the 2020-2022 time frame? How 
much funding in FY17 is requested to begin C3 development?
    Admiral Syring. No, the Configuration 3 (C3) booster will not be 
delivered to support RKV fielding from 2020-2022. In order to maximize 
system reliability as quickly as possible and to meet the 2016 National 
Defense Authorization Act requirement to replace all Capability 
Enhancement-1 (CE-I) exoatmospheric kill vehicles (EKV) by 2022, the 
Missile Defense Agency (MDA) will initially recap C1 boosters with 
RKVs. Beginning in 2023, MDA will deliver C3 boosters with RKVs and 
continue until all CE-2 EKVs are replaced. Beginning in 2024, the first 
18 RKVs that were placed on C1 boosters will receive their C3 booster. 
This strategy focuses resources on the highest priority GBI component 
(replacing all CE-I kill vehicles) while phasing in the C3 booster in 
an efficient manner. In PB17, the Agency has requested $20.8 million in 
fiscal year 2017 to begin C3 development.

                                  [all]
</pre></body></html>
